<html>
<title> - SWELTERING IN PLACE: COVID-19, EXTREME HEAT,. AND ENVIRONMENTAL JUSTICE</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                     SWELTERING IN PLACE: COVID	19,
                EXTREME HEAT, AND ENVIRONMENTAL JUSTICE

=======================================================================m


                                HEARING

                               BEFORE THE

                      COMMITTEE ON SCIENCE, SPACE,
                             AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 14, 2020

                               __________

                           Serial No. 116-76

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
       
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-802PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------      

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

             HON. EDDIE BERNICE JOHNSON, Texas, Chairwoman
ZOE LOFGREN, California              FRANK D. LUCAS, Oklahoma, 
DANIEL LIPINSKI, Illinois                Ranking Member
SUZANNE BONAMICI, Oregon             MO BROOKS, Alabama
AMI BERA, California,                BILL POSEY, Florida
    Vice Chair                       RANDY WEBER, Texas
LIZZIE FLETCHER, Texas               BRIAN BABIN, Texas
HALEY STEVENS, Michigan              ANDY BIGGS, Arizona
KENDRA HORN, Oklahoma                ROGER MARSHALL, Kansas
MIKIE SHERRILL, New Jersey           RALPH NORMAN, South Carolina
BRAD SHERMAN, California             MICHAEL CLOUD, Texas
STEVE COHEN, Tennessee               TROY BALDERSON, Ohio
JERRY McNERNEY, California           PETE OLSON, Texas
ED PERLMUTTER, Colorado              ANTHONY GONZALEZ, Ohio
PAUL TONKO, New York                 MICHAEL WALTZ, Florida
BILL FOSTER, Illinois                JIM BAIRD, Indiana
DON BEYER, Virginia                  FRANCIS ROONEY, Florida
CHARLIE CRIST, Florida               GREGORY F. MURPHY, North Carolina
SEAN CASTEN, Illinois                MIKE GARCIA, California
BEN McADAMS, Utah                    THOMAS P. TIFFANY, Wisconsin
JENNIFER WEXTON, Virginia
CONOR LAMB, Pennsylvania
                         
                         C  O  N  T  E  N  T  S

                             July 14, 2020

                                                                   Page

Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Eddie Bernice Johnson, Chairwoman, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................     9
    Written Statement............................................    10

Statement by Representative Frank Lucas, Ranking Member, 
  Committee on Science, Space, and Technology, U.S. House of 
  Representatives................................................    11
    Written Statement............................................    13

                               Witnesses:

Ms. Heather McTeer Toney, National Field Director, Moms Clean Air 
  Force
    Oral Statement...............................................    15
    Written Statement............................................    18

Dr. Mustafa Santiago Ali, Vice President of Environmental 
  Justice, Climate, and Community Revitalization, National 
  Wildlife Federation
    Oral Statement...............................................    26
    Written Statement............................................    29

Mr. Cecil Corbin-Mark, Deputy Director, WE ACT for Environmental 
  Justice
    Oral Statement...............................................    36
    Written Statement............................................    39

Mr. Hilton Kelley, Founder/Director of the Community In-Power & 
  Development Association Inc.
    Oral Statement...............................................    43
    Written Statement............................................    46

Discussion.......................................................    53

             Appendix I: Answers to Post-Hearing Questions

Ms. Heather McTeer Toney, National Field Director, Moms Clean Air 
  Force..........................................................    82

Dr. Mustafa Santiago Ali, Vice President of Environmental 
  Justice, Climate, and Community Revitalization, National 
  Wildlife Federation............................................    88

Mr. Hilton Kelley, Founder/Director of the Community In-Power & 
  Development Association Inc....................................    93

            Appendix II: Additional Material for the Record

Documents submitted by Representative Eddie Bernice Johnson, 
  Chairwoman, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................    96

Reports submitted by Dr. Mustafa Santiago Ali, Vice President of 
  Environmental Justice, Climate, and Community Revitalization, 
  National Wildlife Federation...................................   126

 
                          SWELTERING IN PLACE:
                        COVID-19, EXTREME HEAT,.
                       AND ENVIRONMENTAL JUSTICE

                              ----------                              


                         TUESDAY, JULY 14, 2020

                  House of Representatives,
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

     The Committee met, pursuant to notice, at 2:08 p.m., via 
Webex, Hon. Eddie Bernice Johnson [Chairwoman of the Committee] 
presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

     Chairwoman Johnson. Well, the hearing will come to order. 
And without objection, the Chair is authorized to declare 
recess at any time.
     Before I deliver my opening remarks, I want to announce a 
couple of reminders to the Members about the conduct of the 
hearing. First, Members should keep their video feed on as long 
as they are present in the hearing, and Members are responsible 
for their own microphones. So please also keep your microphones 
muted until you are speaking.
     And finally, if Members have documents they wish to submit 
to the record, please email them to the Committee Clerk, whose 
email address was circulated prior to this hearing.
     And one additional thing before I begin my opening 
remarks, several of the written witness testimonies for today's 
hearing were received after the Committee's 48-hour deadline 
submission. This is really unfortunate. As I know my colleagues 
and their staff rely upon this testimony to adequately prepare 
for our hearings, this is not something that I or my staff 
support or will encourage in the future. It is my hope that 
this will not become a common occurrence on this Committee. And 
I want to let all of my colleagues know that I and my staff 
will work to ensure all future witness testimony is received 
and distributed in a timely manner.
     I look forward to continuing to work with the Ranking 
Member Lucas and his staff to invite expert witnesses like 
those on today's panel and to support the work of the 
Committee.
     Good afternoon. I'd like to welcome everyone to this 
virtual hearing to discuss the intersection of COVID-19, 
extreme heat, and environmental justice (EJ). I would also like 
to thank our esteemed witnesses for participating in this very 
important hearing. I know your time is in high demand during 
this period of intersecting crises, and we appreciate you being 
here. There is no better time to discuss these important and 
intersecting issues than right now.
     The COVID-19 pandemic has not treated everyone the same. 
The death rate for African-American, Hispanic, and Native 
American people is much higher than for white people of all age 
categories. A Washington Post analysis found that majority-
African-American counties have six times the death rate of 
majority-white counties. The trends for exposure to extreme 
heat and other environmental harms mirror those of COVID-19.
     Extreme heat is especially problematic in cities, where 
urban heat islands form, making some neighborhoods much hotter 
than others. Urban heat islands occur primarily in 
neighborhoods of color and low-income areas, where there are 
often less trees, more concrete, less access to air 
conditioning, and are located closer to highways and factories.
     These disparities hold true for many other issues. People 
of color and low-income communities are hit first, worst, and 
hardest by many disasters and diseases. Disparities between 
African Americans and whites in COVID-19 mortality rates, as 
well as exposure to environmental harms, are the result of the 
legacy of historic redlining and discriminatory housing 
practices. African Americans were systematically denied equal 
access to housing, and to this day, the historically redlined 
neighborhoods are on average 5 degrees Fahrenheit warmer than 
non-redlined neighborhoods in the same cities. Sometimes this 
temperature difference can be as high as 12 degrees.
     And my home State of Texas is no stranger to extreme heat, 
nor other severe weather or environmental threats. In recent 
years, Texans have dealt with toxic emissions from refineries 
in Port Arthur, devastating hurricanes and associated flooding 
in Houston, and destructive tornadoes in Dallas. Now COVID-19 
is devastating our great State. Communities of color and low-
income communities are on the frontlines, fighting for their 
lives against environmental hazards, disease, and social 
injustice as well.
     So, this week, nearly 2/3 of the country is facing warmer-
than-normal temperatures, with 40 percent of the lower 48 
States having a moderate risk of extreme and dangerous heat. 
According to NOAA's (National Oceanic and Atmospheric 
Administration's) Climate Prediction Center, the Texas 
panhandle will experience some of the worst prolonged heat, 
with temperatures around 110 degrees.
     While it is important that agencies like NOAA and EPA 
(Environmental Protection Agency) collect data and conduct 
research on extreme weather and environmental pollution, it is 
not enough. The scope of ongoing Federal research on issues 
such as extreme heat and environmental justice must expand to 
better understand the impacts of environmental and public 
health risk on vulnerable communities.
     That is why we are very fortunate to have the opportunity 
to speak with such an esteemed panel today. I look forward to 
hearing from our expert witnesses on how the impacts of social 
injustice, COVID-19, and the climate crisis on vulnerable 
communities are interconnected, and the role that science and 
research can play in closing the gaps in environmental and 
health disparities for these communities.
     [The prepared statement of Chairwoman Johnson follows:]

    Good afternoon. I'd like to welcome everyone to this 
virtual hearing to discuss the intersection of COVID-19, 
extreme heat, and environmental justice. I would also like to 
thank our esteemed witnesses for participating in this very 
important hearing - I know your time is in high demand during 
this period of intersecting crises, and we appreciate you being 
here. There is no better time to discuss these important and 
intersecting issues than right now. The COVID-19 pandemic has 
not treated everyone the same: the death rate for African 
American, Hispanic, and Native American people is much higher 
than for white people in all age categories. A Washington Post 
analysis found that majority-African American counties have six 
times the death rate of majority-white counties.
    The trends for exposure to extreme heat and other 
environmental harms mirror those of COVID19. Extreme heat is 
especially problematic in cities, where urban heat islands 
form, making some neighborhoods much hotter than others. Urban 
heat islands occur primarily in neighborhoods of color and low-
income areas, where there are often less trees, more concrete, 
less access to air conditioning, and are located closer to 
highways and factories.
    These disparities hold true for many other issues. People 
of color and low-income communities are hit first, worst, and 
hardest by many disasters and diseases. Disparities between 
African Americans and whites in COVID-19 mortality rates, as 
well as exposure to environmental harms, are the result of the 
legacy of historic redlining and discriminatory housing 
practices. African Americans were systematically denied equal 
access to housing. To this day, historically redlined 
neighborhoods are on average 5 degrees Fahrenheit warmer than 
non-redlined neighborhoods in the same city - sometimes this 
temperature difference can be as high as 12 degrees.
    My home State of Texas is no stranger to extreme heat nor 
other severe weather or environmental threats. In recent years, 
Texans have dealt with toxic emissions from oil refineries in 
Port Arthur, devastating hurricanes and associated flooding in 
Houston, and destructive tornadoes in Dallas.
    Now COVID-19 is devastating our great State: communities of 
color and low-income communities are on the frontlines, 
fighting for their lives against environmental hazards, 
disease, and social injustice as well.
    This week, nearly two-thirds of the country is facing 
warmer than normal temperatures, with 40% of the lower 48 
States having a moderate risk of extreme and dangerous heat. 
According to NOAA's Climate Prediction Center, the Texas 
panhandle will experience some of the worst prolonged heat, 
with temperatures around 110 degrees.
    While it is important that agencies like NOAA and EPA 
collect data and conduct research on extreme weather and 
environmental pollution, it is not enough. The scope of ongoing 
Federal research on issues such as extreme heat and 
environmental justice must expand to better understand the 
impacts of environmental and public health risk on vulnerable 
communities.
    That is why we are very fortunate to have the opportunity 
to speak with such an esteemed panel today. I look forward to 
hearing from our expert witnesses about how the impacts of 
social injustice, COVID-19, and the climate crisis on 
vulnerable communities are interconnected, and the role that 
science and research can play in closing the gaps in 
environmental and health disparities for these communities.

     Chairwoman Johnson. At this time I'd like to enter into 
the record a letter from the American Psychological Association 
expressing their support for this hearing and the importance of 
mitigating disproportionate impacts of heat and COVID-19 on 
communities of color. The APA recognizes that COVID-19 is 
exacerbating mental health disparities among African Americans, 
Latinos, American Indians, Alaska Natives, and Asian Americans. 
They highlight that quality and affordable health care and 
treatment must be made available to those hard-hit low-income 
and minority communities to close the gap in mental health care 
and treatment.
    I'd also like to enter into the record a letter from WE ACT 
for Environmental Justice, which is an organization that works 
to implement community-driven political change to address 
environmental racism. I'm entering into the record WE ACT's 
2020 Extreme Heat Policy Agenda Report, which is a long-term 
action plan outlining Federal policy solutions to mitigate 
extreme heat and its impact on vulnerable communities. We will 
also hear from the Deputy Director of WE ACT on today's panel.
     And so now I will recognize our Ranking Member Mr. Lucas 
for his opening statement.
     Mr. Lucas. Thank you, Madam Chairman. And before I begin 
my opening statement, I would note that we have a couple of new 
Republicans on the Science Committee. And at perhaps the next 
meeting I will take a little more time to give them the 
appropriate introduction that they deserve, but it's good to 
add to this Committee.
     With that, as we continue to fight COVID-19, I appreciate 
that we're focusing our hearing time on this pandemic. 
Environmental justice, public health, and extreme weather are 
very serious topics that deserve our attention. It's well-
documented that low-income and minority communities are 
adversely affected by these issues. And while I appreciate the 
effort to better understand why and how that is, I think the 
structure and scope of today's hearing doesn't give us the 
chance to focus on potential solutions.
     Sadly, we know that extreme weather, environmental 
quality, and public health all have a disproportionate effect 
on low-income and vulnerable populations. I've seen it 
firsthand with rural communities and tribal lands in my 
Oklahoma district. It's important we recognize that and have an 
upfront discussion on it. But in addition to having that 
discussion, we have a responsibility to try and solve the 
challenges we face. One of the reasons I love the Science 
Committee is our focus on solutions. We are the most forward-
thinking Committee. We have the ability to support and shape 
our country's path forward.
     That's why I would have liked to have seen a witness from 
the EPA's Office of Environmental Justice at this hearing. If 
we're talking about environmental justice and the disparities 
of environmental effects, we need to know what's being done and 
how we can improve on it. No one outside of that office can 
adequately walk through their $9.5 million budget, one that my 
Democratic friends have just proposed increasing by almost 50 
percent, I might add.
     Like all things in government, EPA's Office of 
Environmental Justice is not perfect and there are certainly 
things that could be improved, but this is the office that 
facilitates nationwide environmental justice solutions. They 
should be here today to discuss that. EPA has funded over $33 
million in environmental justice grants to more than 1,400 
vulnerable communities. It's giving $1 million in grant funding 
to States, local governments, tribes, and U.S. territories to 
help local environmental justice communities address COVID-19 
concerns. And EPA has also requested $18 million as a set-aside 
within the Brownfields Projects program to support Opportunity 
Zone development. Opportunity Zones are a new community 
investment tool to encourage long-term investments in low-
income urban and rural communities nationwide.
     It's easy to just talk facts and figures on the economic 
hardship communities have faced during this pandemic and the 
long-term health effects they have historically battled, but 
it's much more difficult to discuss concrete solutions. For 
instance, we have to be careful of trying to address extreme 
weather by implementing emissions standards that will 
inevitably raise energy prices. Low-income families spend a 
disproportionate amount on energy costs, and any increase can 
affect their entire budget, not to mention their ability to 
heat or cool their homes.
     So while solutions require careful discussions, I think we 
can all agree that investment and development is the best 
starting point. That is exactly what Opportunity Zones are 
designed to do. Over $10 billion has been raised by investment 
as of April 30, and Secretary of the Treasury Mnuchin estimates 
Opportunity Zones could drive as much as $100 billion into 
struggling communities over the coming decade. If you take this 
initiative and connect it to our Committee, you'll see there is 
the potential for universities and scientific institutions to 
commercialize research, support technology transfer, incubate 
student startups, and expand student housing near Opportunity 
Zones.
     Those are just two of many areas that have the potential 
to offer solutions to today's hearing. And before any of our 
friends on the other side point out the witness process, I want 
to say that the minority elected not to invite a witness out of 
respect to whoever it might have been. If we chose an 
Opportunity Zone expert, they would not be able to discuss 
public health or COVID. If we chose a university 
representative, they would not be able to discuss environmental 
justice or heat waves.
     The minority is given the opportunity to invite a witness 
to our hearings to allow the Committee to hear differing 
perspectives on the issues in front of us, but being in the 
minority means we can only choose a single witness. We take 
that responsibility seriously and try to invite experts who can 
speak comprehensively. Today's hearing topic was simply not 
practical for us to identify one expert.
     We also do our best to encourage each witness to be able 
to comply with established Committee rules, which includes 
providing testimony at least 48 hours in advance of the 
hearing. Yesterday, within 24 hours from the start of the 
hearing, staff had received just one testimony, and Chairwoman 
Johnson addressed that issue thoughtfully and fairly a few 
minutes ago.
     With that being said, I have full faith that the four 
witnesses with us today are experts in their fields and will do 
an excellent job in discussing the significant issues low-
income and minority communities are facing. I hope we can hold 
future hearings with EPA to focus on forward-looking solutions 
to these problems. I look forward to the discussion today, and 
I yield back, Madam Chair.
     [The prepared statement of Mr. Lucas follows:]

    Thank you, Chairwoman Johnson. As we continue to fight 
COVID-19, I appreciate that we're focusing our hearing time on 
this pandemic.
    Environmental justice, public health, and extreme weather 
are very serious topics that deserve our attention. It's well 
documented that low-income and minority communities are 
adversely affected by these issues. And while I appreciate the 
effort to better understand why and how that is, I think the 
structure and scope of today's hearing doesn't give us the 
chance to focus on potential solutions.
    Sadly, we know that extreme weather, environmental quality, 
and public health all have a disproportionate effect on low-
income and vulnerable populations. I've seen it firsthand with 
rural communities and tribal lands in my Oklahoma district. 
It's important we recognize that and have an upfront discussion 
on it. But in addition to having that discussion, we have a 
responsibility to try to solve the challenges we face. One of 
the reasons I love the Science Committee is our focus on 
solutions. We are the most forward-thinking Committee, and we 
have the ability to support and shape our country's path 
forward.
    That's why I would have liked to have seen a witness from 
EPA's Office of Environmental Justice at this hearing. If we're 
talking about environmental justice and the disparities of 
environmental effects, we need to know what's being done and 
how we can improve on it. No one outside of that office can 
adequately walk us through their $9.5 million budget - one that 
my Democratic friends have just proposed increasing by almost 
50% I might add.
    Like all things in government, EPA's Office of 
Environmental Justice is not perfect and there are certainly 
things that could be improved. But this is the office that 
facilitates nationwide environmental justice solutions. They 
should be here today to discuss that. EPA has funded over $33 
million in environmental justice grants to more than 1,400 
vulnerable communities. It's given $1 million in grant funding 
to States, local governments, tribes, and U.S. territories to 
help local environmental justice communities address COVID-19 
concerns. And EPA also has requested $18 million as a set-aside 
within the Brownfields Projects program to support Opportunity 
Zone development.
    Opportunity Zones are a new community investment tool to 
encourage long-term investments in low-income urban and rural 
communities nationwide. It's easy to just talk facts and 
figures on the economic hardship communities have faced during 
this pandemic and the long-termhealth effects they have 
historically battled. But it's much more difficult to discuss 
concrete solutions.
    For instance, we have to be careful of trying to address 
extreme weather by implementing emissions standards that will 
inevitably raise energy prices. Low-income families spend a 
disproportionate amount on energy costs, and any increase can 
affect their entire budget, not to mention their ability to 
heat or cool their homes.
    So while solutions require careful discussion, I think we 
can all agree that investment and development is the best 
starting point. That is exactly what Opportunity Zones are 
designed to do. Over $10 billion has been raised for investment 
as of April 30, and Treasury Secretary Mnuchin estimates 
Opportunity Zones could drive as much as $100 billion into 
struggling communities over the coming decade. If you take this 
initiative and connect it to our Committee, you'll see there is 
the potential for universities and scientific institutions to 
commercialize research, support technology transfer, incubate 
student startups, and expand student housing near Opportunity 
Zones.
    Those are just two of many areas that have the potential to 
offer solutions to today's hearing. And before any of our 
friends on the other side point out the witness process, I want 
to say the minority elected to not invite a witness out of 
respect to whoever it might have been. If we had chose an 
Opportunity Zone expert, they would not be able to discuss 
public health or COVID. If we chose a university 
representative, they would not be able to discuss environmental 
justice or heat waves.
    The minority is given the opportunity to invite a witness 
to our hearings to allow the Committee to hear differing 
perspectives on the issues in front of us. But being in the 
minority means we can only choose a single witness. We take 
that responsibility seriously and try to invite experts who can 
speak comprehensively. Today's hearing topic was simply not 
practical for us to identify one expert. We also do our best to 
encourage each witness to be able to comply with established 
Committee rules, which includes providing testimony at least 48 
hours in advance of the hearing. Yesterday, within 24 hours 
from the start of the hearing, staff had received just one 
testimony.
    Chairwowan Johnson addressed that issue very thoughtfully 
and fairly a few minutes ago.
    With that being said, I have full faith that the four 
witnesses with us today are experts in their fields and will do 
an excellent job in discussing the significant issues low 
income and minority communities are facing. I hope we can hold 
future hearings with the EPA to focus on forwardlooking 
solutions to these problems. I look forward to the discussion 
today and yield back, Madam Chair

     Chairwoman Johnson. Thank you very much, Mr. Lucas.
     If there are Members who wish to submit additional opening 
statements, your statements will be added to the record at this 
point.
     At this time, I'd like to introduce our witnesses. Our 
first distinguished witness is Ms. Heather McTeer Toney, the 
National Field Director for Moms Clean Air Force, an 
organization that works to protect children from the 
devastating health impacts of air and climate pollution. Ms. 
Toney previously served as the EPA's Regional Administrator for 
region 4 under President Obama and before that was elected as 
the first African-American female and the youngest Mayor of 
Greenville, Mississippi. She is an expert on environmental and 
climate justice. She has spent years working on the ground with 
rural communities and communities of color on environmental 
justice issues in her home State of Mississippi. Ms. Toney 
received her juris doctor from Tulane University School of Law.
     Our second witness is Mr. Mustafa Santiago Ali, Vice 
President of Environmental Justice, Climate, and Community 
Revitalization for the National Wildlife Federation. Dr. Ali 
has long been committed to the fight for environmental justice 
and economic equity. He worked for 24 years at EPA where he 
helped to found the Office of Environmental Justice and held 
the role of Assistant Associate Administrator for Environmental 
Justice and Senior Advisor for Environmental Justice and 
Community Revitalization. While at EPA, he led the Interagency 
Working Group on Environmental Justice coordinating across 17 
Federal agencies to address the issues facing vulnerable 
communities. Dr. Ali earned his master's degree from West 
Virginia University and holds honorary doctorate degrees from 
Green Mountain College, along with an honorary juris doctor 
degree from Vermont Law school.
     Our third witness is Mr. Cecil Corbin-Mark, Deputy 
Director of WE ACT for Environmental Justice, an organization 
that works to implement community-driven political change to 
address environmental racism. WE ACT works to ensure that 
people of color and low-income residents participate 
meaningfully in the creation of environmental health policy and 
practices. Mr. Corbin-Mark previously worked for the Bronx 
County District Attorney and the Justice Honorable W.T. Martin, 
the Mellon Minority Scholars Program. As a longtime advocate of 
environmental justice in New York City, Mr. Corbin-Mark has 
strongly pushed to reduce vehicle exhaust to improve air 
quality starting with neighborhoods with the worst air quality. 
Mr. Corbin-Mark earned his master's of philosophy in 
international relations from Oxford University in England.
     And our final witnesses is Mr. Hilton Kelley, Founder and 
Director of Community In-Power and Development Association, or 
CIDA Incorporated, a nonprofit dedicated to empowering 
residents in low-income communities in Mr. Kelley's home of 
Port Arthur, Texas. Mr. Kelley is a community leader and 
environmental justice activist, pushing for cleaner, safer 
communities for the vulnerable in his hometown, notoriously one 
of the most polluted in America due to its disproportionate 
exposure to toxic chemicals. Mr. Kelley's advocacy and 
leadership led to Port Arthur being selected by the EPA as an 
environmental justice showcase community and receiving $100,000 
to improve the community's health challenges. Mr. Kelley is a 
Clean Air Ambassador for Earthjustice and a recipient of the 
Goldman Environmental Prize.
     Let me say to our witnesses, you should each have 5 
minutes for your spoken testimony, and your written testimony 
will be included in the record for the hearing. When you all 
have completed your spoken testimony, we will begin with 
questions. Each Member will have 5 minutes to question the 
panel.
     So we will begin now with Ms. Toney.

             TESTIMONY OF MS. HEATHER McTEER TONEY,

         NATIONAL FIELD DIRECTOR, MOMS CLEAN AIR FORCE

     Ms. Toney. Thank you, Chairwoman Johnson, Ranking Member 
Lucas, and Members of the Committee. Thank you for the 
opportunity to testify today about the very real and very 
devastating combination of coronavirus, extreme heat, and 
environmental justice existing in our country today.
     I'm Heather McTeer Toney, and I do serve as National Field 
Director for Moms Clean Air Force. We are a community of over 1 
million moms, dads, and caretakers that are united against air 
pollution and climate change for the sake of our children's 
health. And yes, I previously served as Regional Administrator 
for the southeast part of the United States, and my region 
covered eight States, six tribes, and over 1/4 of the Nation's 
population. In my job I not only assisted communities and 
businesses but also really explained the importance of 
protective measures, especially in vulnerable populations and 
communities of color.
     And aside from being a former Mayor, I am a wife and a 
mother of three children ages 25, 14, and 3 years old.
     Today that we're--the work that we're doing is compounded 
with the onset of coronavirus and the looming threats of 
climate change. Not only are our moms fighting a pandemic in 
the midst of a climate emergency, we're having to do it within 
a system of structural racism and inequity. There's no question 
that the coronavirus pandemic is impacting black and brown 
communities worse than any other demographic in the Nation. A 
study from Yale found that black Americans are three and a half 
times more likely to die of coronavirus than white Americans. 
And while this should not have been a surprise to any of us, it 
was certainly acknowledged within minority communities very 
early.
     The COVID-19 disparities are stemming from multiple 
interrelated factors that are all driven by long-standing 
structural racism and inequity. People of color and lower-
income people are more likely to serve as frontline and 
essential workers, have more essential--more financial pressure 
to work, and lower access to paid sick leave.
     And due to long-standing environmental and social 
disparities, minority communities also have a higher rate of 
chronic conditions that put us at risk for more severe 
illnesses. As an example, we know that black and brown people, 
as well as lower-income people, tend to have higher average 
exposure to air pollution. We also know that air pollution 
exposure causes many of the same chronic diseases that make 
COVID more deadly.
     Now, add to this fact that there's ample evidence that 
racism within the healthcare setting often results in a lower 
standard of care and the fact that some black folks just plain 
don't trust the system because of delay or avoid seeking 
these--COVID care because of past negative experiences or 
distress that stem from a legacy of racism and unethical 
medical research and experimentation.
     Now, while we may not know exactly the details of how 
extreme heat compounds the effects of COVID on low-income 
communities and people of color, what we do know and we can see 
is that the relationship definitely exists and is exasperated 
by oppressive systems of racial inequity.
     Just this past weekend Dr. Linda Rae Murray of Chicago, 
Illinois, outlined a stunningly familiar relationship between 
the death rate of COVID and the Chicago heat wave in 1995, 
which was one of the most deadly in its history. We had over 
700 people die in Chicago's housing projects in what can only 
be explained as death by virtue of being poor.
     And one of our organizers in Phoenix, Arizona, Columba 
Sainz, she's a wife and a mother of three, she explained it 
best. She said energy poverty is real. People in the lowest 
income groups spend the most on energy. The hotter it gets, the 
more it costs and the more we need. And who can afford to pay 
over half their paycheck on air conditioning in the middle of a 
pandemic in a heatwave? Communities of color are energy-poor, 
and here we are 25 years later and we see the exact same 
dynamic played out on the exact same people in the exact same 
way. We haven't legislated to lessen the impacts of structural 
racism but instead we place a higher burden and a lower value 
of lives on the lives of black and brown people. And we see 
this through policies that the EPA is doing like the hundred 
rollbacks that they have instituted within the past 3 1/2 
years.
     Now, with economic resources stretched thin by COVID-19, 
thoughtful spending and prioritizing projects that produce the 
most immediate benefit are needed. I agree, Representative 
Lucas, that we should talk solutions. And one of the solutions 
includes having better information regarding mapping of heat 
islands and better understanding of the risks associated with 
low-income and minority communities to better understand the 
disproportionate impact of extreme weather on communities of 
color. We need to deploy many existing tools, as well as 
developing some new ones with the specific goal of 
understanding the complex web of interactions that result in 
heightened weather-related risk to such communities. We 
absolutely must demand a halt to EPA reversing lifesaving 
protections and that they revisit their mission of protecting 
human health and the environment.
     This is our call to action at Moms Clean Air Force. We're 
demanding justice in every breath of every policy impacting the 
health and well-being of our children.
     I look forward to answering your questions later in the 
hearing, and thank you.
     [The statement of Ms. Toney follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you very much. Dr. Ali.

             TESTIMONY OF DR. MUSTAFA SANTIAGO ALI,

            VICE PRESIDENT OF ENVIRONMENTAL JUSTICE,

             CLIMATE, AND COMMUNITY REVITALIZATION,

                  NATIONAL WILDLIFE FEDERATION

     Dr. Ali. Thank you. Chairwoman Johnson, Ranking Member 
Lucas, and Members of the Committee, on behalf of the National 
Wildlife Federation, our 52 State and territorial affiliates, 
and more than 6 million members in environmental justice 
communities and advocates around the country, thank you for the 
honor of being able to testify and join you today.
     Today's hearing is taking place during a very pivotal 
moment for our society. People from all across--from all ages, 
racial backgrounds, economic statuses, abilities, and more are 
coming together to stand up against injustice that are so 
deeply embedded in our democracy. Whether we're talking about 
the elevated exposures and health-related discrepancies from 
pollution, climate change, COVID-19, or police brutality, 
people are connecting the dots and becoming aware of the 
disproportionate impacts on people of color, low-income 
communities, and indigenous populations.
     Our country is built upon the historical foundation of 
separate and unequal. I'll say that again, separate and 
unequal, and it continues today in the form of sacrifice zones 
in both the urban and rural context. Plessy v. Ferguson, Brown 
v. the Board of Education, a number of other actions have 
attempted to move us forward toward equity and justice, but we 
continue to fall short. Wealthier white communities have 
benefited from protection and resources that have allowed them 
and many of their communities to thrive. Communities of color, 
lower-wealth communities, and indigenous people have had to 
deal with the disinvestment and lack of protections that have 
often left us in a survival mode.
     We now find ourselves on the precipice of change, and 
millions are demanding change. This awakening is correlated 
with the evolving understanding of the institutional and 
systemic racism that has played a critical role in the social 
structures prevalent today. Racial segregation and redlining 
practices that were backed by government entities have had a 
long-lasting impact on the concentration of black and brown 
people. Communities of color were historically disinvested in, 
which has made them susceptible to the placement of toxic 
industries that have polluted air, land, and water.
     According to published annual estimates on behalf of the 
EPA's EJSCREEN, African Americans and Latinx communities face 
significantly higher environmental hazard exposures when 
compared to the majority of white communities. As a result, 
these frontline communities suffer from chronic medical 
conditions, heart, liver, kidney, and lung diseases, as well as 
cancer. Further, these chronic medical conditions make people 
more susceptible to the coronavirus and health-related 
illnesses, including heat exhaustion and stroke.
     So let me be clear. We have over 100,000 people who are 
dying disproportionately from air pollution in our country. We 
have 24 million people who are suffering from asthma and 7 
million kids. And disproportionately, it is African-American 
and Latinx folks who are going to the emergency rooms and the 
ones who are dying prematurely from asthma.
     We also know that there is a direct connection, as Ms. 
Toney shared with folks, between the pollution that people are 
dealing with in these chronic medical conditions and then being 
more susceptible to the COVID-19 infections and unfortunately 
to the loss of life.
     We've already discussed the urban heat effects that are 
going on and understanding that the temperatures inside of 
these communities are greater. We also need to call out the 
fact that we have over 500,000 people in our country who are 
housing-insecure. So whether we are talking about the impacts 
from extreme heat or their lack of ability to protect 
themselves from the COVID-19 virus, then we've got work to do.
     We also know, as was shared earlier, that there are mental 
health impacts that are also associated with extreme heat, and 
those challenges may make it more difficult for people to make 
the decisions that they might normally make in making choices 
about navigating these impacts that are happening from COVID-
19.
     I just want to also highlight for folks that many folks 
are also being--facing these situations where they are 
insecure. They are water-insecure, as well as some of these 
other insecurities that we'll talk about. And that gets to our 
ability to actually help these people to be in a better place. 
If we know that folks' water is being turned off but we've sent 
the message across the country that you need to be able to wash 
your hands to protect yourself from the COVID-19, then there's 
something wrong with our process if we're still allowing these 
types of things to go on and if we don't move past just the 
moratorium but making sure that people have the security that's 
necessary. If we know that, we need to make sure that people in 
an extreme heat event have access to air conditioning. That's 
the first step in making sure that they can deal with these 
escalating bills that are going on, but then we have to ask the 
question about what types of air conditioning are proper to 
make sure that the right types of ventilation is going on.
     That ties also to our schools. Everybody is focused on 
trying to move our students back to school so that they can get 
a quality education. We have to address this crumbling 
infrastructure that is happening in black and brown schools and 
on indigenous land. And if we're not doing that, then we're 
creating these additional sacrifice zones. We're continuing to 
allow this to be the dumping grounds where we put bad policy in 
place, where we disinvest in communities, and we don't make 
real change happen.
     And I'll just close out with this because I'm so thankful 
for this bipartisan Committee that is focused on making real 
change happen. We have opportunities around a just transition 
and utilizing cleaner forms of energy to lower these emissions 
that we know are going on in these communities. That's one.
     The second one is that we have opportunities around 
natural infrastructure, whether it is in our tree planting or 
helping to rebuild our marshes and wetlands and all these other 
opportunities to create these carbon capture situations.
     And then finally, you know, we've had lessons from 
Roosevelt and others about the CCC (Civilian Conservation 
Corps). And I know there's lots of really great conversations 
that are happening now on the Hill about how do we put these 
cores back to work to help to rebuild our country but at the 
same time make sure that equity is really a part of that 
process so that no one is getting left behind.
     So I want to thank you all for taking a bipartisan 
approach, thinking critically about the actions that are 
necessary, but also the investments that are going to be 
critical if we're going to help our most vulnerable communities 
move from surviving to thriving.
     [The statement of Dr. Ali follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you very much, Dr. Ali. Mr. 
Corbin-Mark? You're muted.

                TESTIMONY OF CECIL CORBIN-MARK,

       DEPUTY DIRECTOR, WE ACT FOR ENVIRONMENTAL JUSTICE

     Mr. Corbin-Mark. Sorry. Sorry very much. Sorry. I'll start 
over.
     Good afternoon, and thank you, Chairwoman Johnson and 
Ranking Member Lucas and all of the Members of the Committee, 
for the invitation to testify before you. My name is Cecil 
Corbin-Mark, and I'm the Deputy Director of WE ACT for 
Environmental Justice. We are a 32-year-old environmental 
justice organization with 1,000 dues-paying members primarily 
located in the 15th Congressional District. We have offices in 
Harlem and in Washington, DC, where we anchor a nationwide 
environmental justice coalition called the Environmental 
Justice Forum that focuses on climate policy, energy policy, 
and other matters of concern to the EJ movement.
     WE ACT's mission is to build healthy communities by 
ensuring that people of color and communities of low-income 
residents participate meaningfully in the creation of sound and 
fair environmental health and protection policies and 
practices. And WE ACT envisions a community that has informed 
and engaged residents who participate fully in decisionmaking 
on key issues that impact their health and community, strong 
and equal environmental protections, and increased 
environmental health through community-based participatory 
research and evidence-based campaigns.
     Let me start off by saying that climate change is here 
today. It is threatening our health now, and if felt--and if 
left unchecked will lead to increases in both illnesses and 
deaths. Immediate action can and must be taken to both mitigate 
the effects of climate change over time and adapt our 
communities in ways that reduce the health impacts now so that 
our communities can be further protected.
     WE ACT for Environmental Justice strongly supports 
measures to reduce carbon pollution and other greenhouse gas 
emissions from all sectors, including energy production, 
transportation, health care, forestry, agriculture, and the 
like.
     In addition to mitigating efforts [inaudible] WE ACT 
believes it's critical for the Federal Government to provide 
technical assistance, tools, and resources to help States, 
cities, and rural communities, territories, and tribes prepare 
for and protect their communities from the health impacts of 
climate change.
     We've seen through the Fourth National Climate Assessment 
completed in 2018 that details the health impacts of climate 
change in the United States and says the health and well-being 
of Americans are already affected by climate change with 
adverse health consequences projected only to worsen with 
additional climate change. Climate change affects human health 
by altering exposures to heat waves, for example, one of the 
key subjects of this Committee's hearing today, as well as air 
pollution, a critical issue that WE ACT has focused on for at 
least three decades.
     I want to just focus and move to extreme heat. Exposure to 
extreme heat kills more people in the United States and 
particularly black and brown people in the United States at 
higher rates than any other weather-related threat, and extreme 
heat events are on the rise. By 2050, one estimate predicts 
approximately 3,400 more premature deaths each year in the 
United States due to extreme heat, and the burden of heat-
related illness and the death--and disproportionate death--
sorry, and disproportionate death affects climate-sensitive 
populations like pregnant women, the young, and the old, and 
the chronically ill, as well as people of color and low-income 
families and outdoor workers.
     Just one heatwave event can cost $179 million in 
hospitalizations, emergency department encounters, and 
outpatient visits. Extreme heat events can trigger a variety of 
other heat-related conditions and severe dehydration to 
heatstroke. High-heat conditions can also exacerbate 
cardiovascular and respiratory disorders, resulting in 
hospitalization and even premature death. Also, extreme heat is 
linked to increased aggression and more suicides in some 
studies.
     The built environment plays a critical role in the 
severity of heat-related events because of the urban heat 
island effect. Climate change can worsen heat effects due to 
less reflective impervious surfaces, which make urban settings 
more deadly than vegetative rural communities. This issue of 
land use needs to be more actively addressed as the climate 
warms, and adaptation also requires considerable emergency 
planning and risk communications to inform the public, identify 
people most at risk, and respond with proactive measures to get 
people out of the heat.
     This requires a range of community tools such as cooling 
centers, water distribution, fan, wind, air conditioning unit 
distribution, and even relocation in some instances. Battling 
heat-related health threats requires considerable amounts of 
resources. As extreme heat events become more frequent and 
intense, key health effects will worsen and health costs will 
rise to us, and we will lose more lives.
     However, some interventions are really worth it, and I 
urge the Committee to really in a bipartisan way advance on key 
issues in supporting things like the expansion of the HEAP 
program, the Home Energy Assistance Program, as well as 
creating more program for WAP, the Weather Assistance--
Weatherization Assistance Program. These--in particular, the 
last program has real opportunity to move beyond some of the 
structural impediments that have traditionally allowed 
communities in our EJ areas to be left behind in terms of the 
advancement of both energy and reduce the energy burden that 
those communities currently exist with.
     Energy insecurity is a significantly serious issue for 
many of our communities, and it really is the focus--its 
focus--sorry [inaudible] is about really looking at the 
interplay between physical conditions, housing, household 
energy expenditures, energy-related coping--and energy-related 
coping strategies. The--there are a lot of studies that have 
been done to really show that if we deal with energy 
insecurity, we can help lift certain communities out of the 
energy poverty and insecurity that they are experiencing.
     One of the things that we at WE ACT really try to advance 
and support is the idea that, as we move forth with dealing 
with just how we respond in terms of mitigation to heat-related 
events, that we really need to tackle the structural 
underpinnings that have really created some of the challenges 
for our communities not to be able to fend for themselves, and 
energy insecurity is certainly at the heart of that. Dealing 
with how we weatherize our households is critical so that the 
legacy of redlining, the legacy of disinvestment in particular 
communities that has so adversely affected particularly African 
Americans but also other people of color, as well as indigenous 
peoples, is a significant--is a critical effort that must be 
undertaken as quickly as possible.
     I will, with that, just yield my time and say that the 
expansion of the HEAP program so that it can allow for the 
payment of air conditioner utility bills is critical to be able 
to help provide comfort and aid to some of our communities. And 
this is not just a luxury issue of having an air conditioner at 
this particular point in time. This is literally an issue of 
life and death. As extreme heat continues to be a problem for 
communities of color across this country, this is not a luxury. 
This is really about public health and making sure that people 
aren't dying.
     But beyond the issue of dealing with just providing air 
conditioners in the short term, one of the things that we have 
to do is address the structural issues with housing that have 
led to the inefficiency of those homes, creating a higher level 
of energy burden for communities of color as they spend more 
and more of their income to pay their utility bills.
     And so doing the issue--advancing the issue of further 
funding the Weatherization Assistance Program is a critical 
necessity for these communities to help them move beyond the 
challenges that they are experiencing at this particular point 
in time and to really address the structurally racist way in 
which housing has sort of moved forth in this country over 
time.
     I'll stop there and say thank you for your time. I've 
submitted my testimony, which is long.
     [The statement of Mr. Corbin-Mark follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you, Mr. Corbin-Mark.
     We will have our final witness now, Mr. Kelley.

                  TESTIMONY OF HILTON KELLEY,

         FOUNDER AND DIRECTOR OF THE COMMUNITY IN-POWER

                AND DEVELOPMENT ASSOCIATION INC.

     Mr. Kelley. Good afternoon, Chairwoman Johnson, Ranking 
Member Lucas, and Members of the House Committee on Science, 
Space, and Technology. My name is Hilton Kelley, Founder and 
Director of the Community In-Power and Development Association 
located here in Port Arthur, Texas, also known as CIDA Inc. I'm 
also a member of the Environmental Justice Leadership Forum. 
The EJ Forum is a national coalition of nearly 60 environmental 
justice advocacy experts working to eliminate environmental 
injustice through technical assistance, capacity-building, and 
policy solutions.
     I would like to start by saying I sincerely appreciate 
this opportunity to speak before you and this body today, and I 
hope that in some way I can shed some light on the social and 
environmental impact issues which millions of Americans are 
dealing with on a daily basis, which position them to be more 
susceptible to the coronavirus and other issues which come with 
chronic flooding and climate change and the disproportionate 
exposures to pollution.
     As stated, my name is Hilton Kelley. I live in the city of 
Port Arthur, Texas, on the Gulf Coast. Port Arthur, Texas, is 
also home to a large number of refineries, chemical plants, and 
other petrochemical industries like Veolia, a chemical 
incineration facility; Oxbow Calcining petrochemical coke 
facility which dumped tons of sulfur dioxide into the air every 
day.
     It would be fair to say that out of all four of the oil 
refineries with Motiva being the largest, producing 633,000 
barrels of oil per day and the five chemical plants, Oxbow 
Calcining dumps more sulfur dioxide than all of them combined. 
Oxbow Calcining pumps out 98 percent of the SO<INF>2</INF> 
which is emitted into our air, and they refuse to put in the 
necessary scrubbers to help protect human health and/or the 
environment. Only 2 percent of the sulfur dioxide is emitted 
from the four oil refineries and five chemical plants combined.
     When we speak of emissions issues, refineries and chemical 
plants many times is due to the power failure, malfunction, 
fugitive emissions, and startup and shutdown procedures with 
the processing units that they dump out the most pollution, 
which engulf our communities with strong, pungent chemical 
odors, soot, and smoke. And on occasions there has been fuel 
tank explosions and process unit explosions like the one in 
Nederland, Texas, in November 2019, a day before Thanksgiving. 
Many homes were damaged, and hundreds were evacuated to safer 
areas.
     After the explosion, it was discovered the large amounts 
of 1,3-butadiene, which is a known carcinogen, was being 
released into the air unchecked due to the fact the processing 
unit was no longer there. Because of the large explosion, this 
issue is still ongoing, and yes, to be--has yet to be settled 
almost a year or so later.
     In 2017, shortly after Hurricane Harvey hit the Port 
Arthur area, Houston and Beaumont, Texas, area, and all areas 
in between, many of the refineries and chemical plants had to 
go into shutdown mode and was unable to operate due to flooding 
on their grounds. And then the shutdown procedure is in effect. 
There's a lot of flaring which takes place because of the 
material in the pipelines that must be burned, thus creating 
more pollution. And oftentimes, things happen during the flood, 
which is out of the facility's control like the tank explosion 
at the Valero oil refinery, which took a few days to burn 
itself out. But in either case, the workers at the plant, the 
community, and the environment suffer.
     Historically, African-American people of color have been 
forced to live in heavily industrialized low-lying areas due to 
housing discrimination on a Federal, State, and local level. 
And it is because of this historic fact that we are plagued 
with pre-existing conditions like hypertension, liver and 
kidney disease, acute asthma, bronchitis, COPD (chronic 
obstructive pulmonary disease), et cetera. It's been discovered 
by our medical and healthcare experts that in the wake of 
COVID-19, those who suffer from the pre-existing conditions 
mentioned earlier are more susceptible to being infected with 
COVID-19 than others. And it has been proven so.
     Due to the disproportionate of large number of African-
Americans' death with pre-existing conditions which have taken 
place across our country as we move forward and further into 
the 2020 summer, it is also understood by our weather experts 
that we are going to experience high heat temperatures ranging 
from 98 to 104 degrees. These high temperatures will further 
exacerbate the health conditions of those with pre-existing 
conditions, rendering them more susceptible to the known virus, 
COVID-19.
     As we get further into the summer of 2020 and closer to 
the peak of hurricane season, hurricanes are expected due to 
the patterns which have been created within the last 15 years. 
Hurricane Katrina, Hurricane Rita in 2005, Hurricane Gustav and 
Ike in 2008, Hurricane Sandy in 2012, Hurricane Gonzalez in 
2014, and, fast-forward, Hurricane Harvey in 2017, which 
brought in record-breaking flooding throughout southeast Texas, 
leaving 80 percent of the Port Arthur, Texas, area inundated 
with water.
     Also due to the shutdown procedures of the petrochemical 
facilities, we saw a 15,000 percent spike in the release of 
known carcinogens. On a personal level, my home was also 
flooded with 3 feet of water throughout the whole interior, and 
because of the heat, mold, and destruction of my home, it was 
deemed uninhabitable and required major construction repairs. 
And we had no choice but to live with relatives until we were 
able to obtain a FEMA (Federal Emergency Management Agency) 
mobile home, which we were successful in doing. And we stayed 
there for a year while our home was being repaired.
     Many people were not as fortunate as myself. Many of the 
elderly and poor had to live in their damaged homes due to the 
fact that they did not qualify for FEMA assistance, and to live 
inside of a moldy, humid structure means certain respiratory 
illnesses for the inhabitants.
     High floodwaters on the Gulf Coast has become a chronic 
problem over the years, so much so that many are elevating 
their homes in the neighborhoods where once considered a high 
ground area, no flood zone, which are now flooding. I have 
taken it upon myself and my organization to do what we can to 
assist my community and others with learning to fight climate 
change and chronic flooding to help sustain our communities, 
neighborhoods, and culture by joining up with the Anthropocene 
Alliance/higher ground national network, which helped chronic 
flooding communities find experts and resources to help keep 
their communities strong and find new ways to coexist with our 
forever-changing climate. And we are growing in numbers as more 
and more further inland communities begin to flood. We flood 
and we vote is to be noted.
     I would like to end my testimony by asking our--by a few 
asks. I would like to ask for our low-income people of color, 
disenfranchised communities, are in need of strong Federal 
science and the study of cumulative impacts of various 
chemicals emitted by large polluting refineries and chemical 
plants and other large polluting industries in the Port Arthur, 
Texas, Jefferson County area and Hardin County area. We are 
also in the need of strong Federal study on emitted chemicals 
when they impact our health on the human body and strong 
Federal studies on regulation and the possible impacts of 
deregulation of polluting industries in vulnerable people of 
color communities.
     On the last page of my testimony you will find a list of 
chemicals emitted into our air in large quantities over the 
last 5 years, and some of those chemicals are known 
carcinogens. The measure of those chemicals is in pounds and 
tons per year. The source of this information is also noted.
     I would like to give my sincere thanks and appreciation 
for your attention and time. And with all due respect, I 
welcome any questions at this point.
     [The statement of Mr. Kelley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
     Chairwoman Johnson. Thank you very much. That concludes 
the witnesses' testimony, so at this point we will begin our 
first round of questions, and I will recognize myself for 5 
minutes. And I think that I will pose this question to each of 
the witnesses.
     The COVID-19 pandemic has exposed major vulnerabilities in 
our government's ability to predict and respond to public 
health crises. My colleagues and I on this Committee are 
working to understand what Federal investments in science and 
research are needed to respond to COVID-19 and mitigate long-
standing and future public health crises.
     So to each witness, what science gaps remain in 
understanding the converging environmental and health effects 
of extreme heat, toxic air pollution, and COVID-19 that 
disproportionately impacts environmental justice communities? 
And we can start with any of the witnesses.
     Mr. Kelley. This is Hilton Kelley. I would like to state 
that I believe that there are certain barriers to health care 
that make us more vulnerable in the African-American 
communities and people-of-color communities. Those barriers are 
critical because many times it's because of transportation or 
it's because of finances that many people cannot afford to go 
to the doctor when they are stricken with heat strokes or when 
they are dealing with some kind of adverse physical condition 
or mental condition.
     And so, with that being said, I think it would be--behoove 
our government to look at ways in which they can possibly help 
provide quality health care to all of our citizens. I mean, I 
know that we have money to do various things to help protect 
our country, but yet how important is it to help protect the 
country and the people that live in this country who help keep 
it great? I think it would be very, very important for our 
local government, Federal Government to look at ways in which 
we can provide health care to keep all of our people healthy at 
all times.
     Chairwoman Johnson. Thank you. Dr. Ali?
     Dr. Ali. Well, one of the things that we should be focused 
on is making sure that we're understanding these cumulative 
impacts that are happening in our most vulnerable communities 
from both pollution and COVID-19. So we could make sure that 
the Office of Research and Development at the Environmental 
Protection Agency has the resources that it needs to also 
partner with HHS (Department of Health and Human Services) and 
CDC (Centers for Disease Control and Prevention) to answer that 
question. And then we need to have a better understanding also 
of these viruses and how they travel. So we continue to have an 
evolving set of conversations as people learn more about COVID-
19 to really understand PM2.5, PM10, ultrafines, and other 
possible vehicles that may spread the virus.
     So we need to anchor it in the facts, we need to anchor it 
in the science, and that means that we have to make sure that, 
one, the resources are there, and two, the mandate to make sure 
that people are understanding how these cumulative impacts may 
be causing additional challenges inside of communities of 
color, lower-wealth communities, and on indigenous land.
     Chairwoman Johnson. Ms. Toney?
     Ms. Toney. Thank you, Congresswoman. I think absolutely we 
have to do as Dr. Ali just stated and really hold EPA's feet to 
the fire. Right now, we're in the appropriations process in the 
House, and there's consideration to even veto what their 
existing budget is, which would include funding to do these 
types of research projects. Unfortunately, right now, EPA is 
not holding this as a high priority, so there should be some 
accountability there to ensure that they are researching and 
using and developing this data so that we can use it in the 
future. It's going to be critical to making these 
determinations.
     I'll say that at Moms Clean Air Force we are very 
fortunate that we get to work alongside our friends and 
partners at the Environmental Defense Fund. And, right now, EDF 
is working on building something called a CVI, climate 
vulnerability index, that will help to gather data that comes 
from a myriad of sources that really aggregates and translates 
the climate change data down to accounting-level scale.
     And this information, when you are able to work together 
and collect it in your community, is what helps local elected 
officials and decisionmakers make these sound decisions that 
are sustainable and are resilient for that community. It's also 
what helps us as moms advocate for this and understand what 
things need to be made a decision need to be made in our own 
communities. So, again, data collection is important, research 
is important, but investing in it, you have to do it at the 
outset.
     Chairwoman Johnson. Thank you very much. I have just a few 
seconds, Mr. Corbin-Mark, if you want to make a comment.
     Mr. Corbin-Mark. Chairwoman Johnson, thank you. I would 
just say that it's really--it's impossible I think at this 
point to really try to untangle certainly the African-American 
communities but other communities of color current risk from 
our not only are historically racist practices but the COVID-19 
crisis that we are experiencing as well.
     In terms of where and how we move forward, I do think 
that, yes, collecting data is critical and important. I do 
think that using that data to fuel effective programming and 
supporting local, county, and city and State health departments 
and answering the questions of addressing sort of the 
interrelationship between pollution, the legacy of pollution 
that EJ communities experience, and the public health crises 
many of our communities already know and understand that we are 
facing, this is not new to us.
     But I also think that it's important for us to deal with 
the historical legacy of racism and to really understand that 
racism has a public health sort of output and component to it 
that is often overlooked.
     And I found it interesting the other day to note that the 
CDC, some officials within the--inside the CDC were calling on 
the CDC, the Centers for Disease Control, to actually 
acknowledge the health impact of racism and to sort of move 
forth in helping us deal with that as well, and that still--
even though the Director of the CDC has responded to that by 
the employees, there's still no movement in terms of concrete 
policy and resources being expended toward addressing this 
issue of racism and its public health impacts.
     So I agree with my other colleagues that it's important 
for us to focus on the health impacts of COVID-19, the 
disproportionate health impacts of COVID-19, but I think it's 
also critical for us to be focused on some of the root causes 
of how we got here, and part of that is recognizing that racism 
is a public health issue, and the data to be collected about 
that and move forward as we continue to deal with the pandemic 
of COVID-19 but also focus on the pandemic of racism.
     Chairwoman Johnson. Thank you very much. Mr. Lucas.
     Mr. Lucas. Thank you, Madam Chair. And I address my 
question to whichever or if any of the witnesses would care to 
respond.
     The Department of Energy reports that low-income families 
nationwide spend about three times more of their gross 
household income on energy costs then non-low-income 
households. As I said earlier, Oklahoma has rural communities, 
tribal lands. We're subject to extreme weather, especially heat 
in the summertime. Can you all talk about the balance of 
implementing emissions standards while ensuring these low-
income communities with less expendable income are not subject 
to higher energy costs? And while you're thinking about that, 
how does access to energy efficiency programs help in this 
context, too? Just whoever would care to touch that subject 
matter.
     Mr. Corbin-Mark. Ranking Member Lucas, thank you so much 
for your question. I would definitely say that the energy 
insecurity experienced by the communities in Oklahoma, as well 
as those in Harlem, is something that does need to be focused 
on. I believe that the Congress should afford more resources to 
the Weatherization Assistance Programs. If you look at the 
housing quality and housing stock that are inhabited by many 
people of color, those are the very same housing stock that 
have been disinvested over a long history of racist practices 
in our country. These are the very same housing stock that are 
energy-inefficient, leak in ways that create a fueling rise--
and fuel the rise, sorry, of the energy expenditures that these 
households have to expend.
     We also have in certain portions of the country 
Weatherization Assistance Programs that are struggling to 
really be able to continue to do the work of fixing those homes 
because of the lack of resources. I think this is a perfect 
place for the Federal Government to step in and really provide 
resources so that locally, whether they're administered through 
the States or in localities, that we can actually create a real 
goal for weatherizing low-income homes across this country.
     To me, this is not something our country should be unable 
to do. In fact, it is a travesty that we haven't been able to 
set a goal and be able to complete the fact that a certain 
finite number of houses within this country need the resources 
to be able to weatherize, and this would be something that 
structurally challenges the racist past of redlining and 
disinvestment in those particular localities.
     Mr. Kelley. Yes, this is Hilton Kelley of Port Arthur, 
Texas. In Port Arthur, Texas, what we're seeing on the ground 
and have been seeing for quite a few years is a large number of 
residents fighting to pay their electric bill because 
[inaudible]. They are making choices whether or not they can 
[inaudible] or pay the light, gas, or water bill. There's a 
disproportionate number of African Americans in the [inaudible] 
black communities that are basically with low employment or no 
employment.
     I mean, at this particular time because of COVID-19 many 
folks in this area have been laid off from their three or four 
jobs, they have nothing coming in and at this particular time, 
and now they're getting ready to deal with this heatwave that's 
going to be going through the country. [inaudible] really 
bewildered on how people are going to afford it [inaudible] 
trying to keep the lights on, pay for medicine, or now even 
paying their rent.
     So we are in a situation here but also [inaudible] the 
Environmental Protection Agency could do a great service by 
pushing industries to reduce toxic emission that they're 
dumping the amount of tons every year [inaudible] 
disproportionate amount of [inaudible] being dumped [inaudible] 
on what they're allowed to [inaudible] when it comes to sulfur 
dioxide of course impacts climate change. From my understanding 
[inaudible] they're fighting to roll back so many environmental 
justice laws that sort of help prevent pollution from being 
just openly dumped into the environment, so rolling back the 
laws [inaudible] you can dump at will [inaudible] that is not a 
healthy situation [inaudible] or the health of the people that 
live literally on the fence line. So we have a lot of work to 
do right there within the Environmental Protection Agency that 
could be done to help eliminate some of these problems.
     Ms. Toney. Representative Lucas--I'm sorry, Congressman 
Lucas, if I can just add really quickly, you know, it's an 
important point to understand that this--the [inaudible] 
corporations and businesses because when we're talking about 
emissions standards versus high energy costs, what we're saying 
to people is you can either have good health or you can have 
cheap energy. We're not telling them that both are--there's an 
opportunity for both. We're making people make a choice, which 
we shouldn't have to because energy companies and coal 
companies are telling people, poor people who live in places 
like yours and mine in Mississippi and Oklahoma that they have 
to do one or the other. In reality, these businesses and 
corporations can reduce their cost while at the same time 
ensuring that people can live in healthy spaces by reducing 
their own emissions.
     We should also look at the fact that this is part an 
investment that people--and we can help people to take in terms 
of reducing their energy costs. A lot of low-income communities 
aren't able to afford to front an investment that oftentimes 
are--is told to them that they have to make in order to have 
renewable energy, in order to have low emission energy sources, 
so there are things that we can certainly do within the system 
that will make it effective so that we can live healthy and 
have reasonable energy cost.
     Mr. Lucas. As I yield back, Madam Chair, I would just note 
the witnesses provide tremendous insights. We always have to be 
honest with the constituents about the balancing act. There is 
a cost to everything for every good, and that is part of our 
responsibility is to sort our way through all that.
     With that, Madam Chair, I yield back.
     Chairwoman Johnson. Thank you very much. Ms. Lofgren?
     Ms. Lofgren. Thank you very much, Madam Chairman and 
Ranking Member Lucas. This has been a fabulous hearing, and 
it's been an honor to listen to these witnesses, the insight 
that they have to share with us. And I want to honor and 
appreciate each and every one of them for that.
     You know, the COVID pandemic has revealed divisions and 
systematic racism within our society. It didn't create it, but 
it revealed divisions, and we have an opportunity now to 
examine that broad scope of that and to come up with a path 
forward for change.
     You've touched on so many issues, and we are going to have 
a very broad need to move forward, so I'm just going to focus 
on one specific thing as a Californian, and maybe you can talk 
about that.
     Last September, the EPA moved to revoke California's 
waiver to set its own tougher air pollution standards despite--
and we're in court--but despite decades of acknowledging that 
California had the right to do that. And in fact California 
moved before the national government ever moved on air 
pollution because of the tremendous smog problem in this State. 
Just recently, Nevada, Minnesota, and New Mexico announced that 
they want to adopt the California plan to reduce pollution, so 
that would be 16 States and the District of Columbia.
     I'm wondering, you know, when you think about low-income 
communities that tend to be built near freeways or I think 
about the Central Valley where the highest asthma rate for 
children in the United States is in the Central Valley of 
California and I-5 runs right down that whole valley spewing 
emissions. What impact does the EPA action have, do you think, 
on the potential risk for COVID for low-income communities? 
That is--I don't know if Dr. Ali can mention that or anyone 
else.
     Dr. Ali. Well, we know historically that there has been 
systemic racism in our transportation policies. It is well-
documented that in many instances our roads and highways have 
been designed to bring wealth into certain communities and to 
dump all pollution unfortunately in other communities.
     We also know that when we placed these communities in 
locations that are close to our transportation infrastructure, 
that these chronic medical conditions that have been mentioned 
before are exacerbated. And through that, it makes folks more 
vulnerable to COVID-19.
     So when California was trying to strengthen their 
standards, what they were trying to do is protect more people's 
lives. And when we don't do that, unfortunately, we are, you 
know, putting more people's lives in jeopardy and also making 
folks more vulnerable to COVID-19 because we know that the 
pollution that is coming out of tailpipes, you know, plays a 
significant role in ozone, which most people label as smog. So 
we have a right to make sure that we are doing the right thing 
and actually strengthening the respective statutes or laws that 
are meant to protect folks.
     Mr. Kelley. And this----
     Ms. Lofgren. Thank--yes, go ahead.
     Mr. Kelley. I'd just like to add to what Mr. Ali was 
saying. Here in Port Arthur, Texas, we were in a 3-year battle 
with the Valero oil refinery and the Motiva oil refinery, which 
is the largest oil refinery in the northern hemisphere. Motiva 
puts out 633,000 barrels of oil per day. Now, I lived in 
Oakland, California, in the bay area. I'm very familiar with 
Interstate 5 going to Los Angeles from the north. But yet with 
that being said, I'm familiar with the issues [inaudible]. 
That's how a lot of the pollution not only from the vehicles 
but from surrounding industries started to travel through our 
air and it sort of alights in the valley, and therefore you 
have more acute asthma in that--in those kind of communities.
     But what we found in our fight with these industries to 
reduce their pollution when Gina McCarthy was head of the 
Environmental Protection Agency, we found that these 
industries, when they put in scrubbers, when they put in sulfur 
recovery units, when they put in flare gas recovery units, 
instead of just dumping all this stuff in the air and finding 
creative ways in which to mitigate it and to contain it and get 
rid of it properly, you have a huge reduction in sulfur dioxide 
carcinogens like benzene and 1,3-butadiene. It has been proven.
     After our battle with the Valero oil refinery and within 
our battle we kind of like pushed them to put in flare gas 
recovery and sulfur recovery units, and they came back to us 
and they said, you know what, by us updating our units, by us 
buckling down and getting rid of some of the leaks and some of 
the fugitive emissions that were taking place, we have saved a 
lot of energy. We have saved a lot of money due to fines. We've 
saved a lot of money due to the chronic explosions they were 
having.
     So many times--people don't change all because the owners 
of those facilities just choose not to spend the extra buck. 
It's all about the extra buck. But if they think about it and 
they repaired those units or they changed out many of those 
antiquated units and they make sure that their pipes aren't 
leaking, they make sure that the tank--their storage tanks 
aren't leaking, then they will find that they will save money, 
and they will also help to keep the environment cleaner and 
thus save a ton of money on fines as well. So it would behoove 
them to look at ways in which they can upgrade and spend the 
money now so they don't have to spend double that amount on the 
backend.
     Ms. Lofgren. Thank you very much.
     Madam Chair, I see my time is expired. Thank you very 
much, and I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Weber.
     Mr. Weber. Madam Chair, pass me by for the time being.
     Chairwoman Johnson. Oh, OK. Ms. Bonamici?
     Ms. Bonamici. Well, thank you, Chair Johnson and Ranking 
Member Lucas, but really thank you to the witnesses for your 
very insightful testimony and really for highlighting how much 
our vulnerable communities, low-income communities, black, 
indigenous, and communities of color have been hardest hit not 
only by the COVID-19 pandemic but also disproportionately 
affected by the climate crisis.
     I am honored to serve on the Select Committee on the 
Climate Crisis, and we recently released our bold, 
comprehensive, science-based climate action plan that sets our 
Nation on a path to reach net-zero emissions no later than 
midcentury and net-negative thereafter. And our plan is 
centered on the principles of justice and equity, and we really 
looked at it as everyone needs and deserves access to clean 
air, clean water, and a planet free from toxic pollution.
     Some of the plan steps to repair the legacy of 
environmental racism that has really burdened our low-income 
and communities of color, include enforcing the bedrock 
environmental laws, doubling the EPA's enforcement budget, 
amending the Civil Rights Act to define discrimination based on 
disparate impact, strengthening public consultation for 
environmental justice communities under the National 
Environmental Policy Act, and getting rid of exclusionary 
provisions in Federal funding for tribes. Those are just some 
examples.
     And I wanted to point out--I'm here in northwest Oregon. A 
study recently from Portland State University demonstrated how 
historically racist redlining housing policies, which of course 
have been discussed in this testimony, in northeast Portland 
have exacerbated the effects of warming temperatures and poor 
air quality for black people and people of color. Extreme heat 
events are expected to increase in frequency and intensity 
because of the climate crisis and, as a result, the same 
historically underserved neighborhoods will face the health 
risks of increasing temperatures, higher energy bills, and 
often inequitable access to green spaces.
     And I do want to note because I heard Mr. Lucas's concerns 
about high energy bills--strong supporter of the LIHEAP 
program, the Low-Income Home Energy Assistance Program, but we 
also cannot look at those bills in isolation. We need to look 
at the cost of additional health problems that are caused by 
heat and pollution.
     So, Dr. Ali, thank you for your testimony about natural 
solutions. And, as you noted, one of the ways to address urban 
heat islands is investing in restoration of natural resources 
in urban forestry programs. So how can Federal agencies better 
coordinate to, for example, increase urban tree canopy, create 
good-paying restoration jobs, and address urban heat islands?
     Dr. Ali. Well, you know, the first thing that we have to 
do is continue to get out of [inaudible]. Over the years, 
people began to evolve a bit and working in that direction. You 
heard people mention the Interagency Working Group for 
Environmental Justice, which came out of Executive Order 12898 
that President Clinton signed in 1994 that was bringing folks 
together. There are other opportunities that exist there. And 
what we have to do is to leverage the resources on the Federal 
side but also then also look at some public-private 
partnerships to help make change happen.
     You know, we have the opportunity now to actually address 
many of these impacts that are happening in vulnerable 
communities, one, from the fossil fuel pollution side. We have 
to have a just transition there. We can also use natural 
infrastructure where we can create a number of jobs to be able 
to, you know, rebuild wetlands, as I said, our forest, which 
can lower some of the heat issues that we're referencing today 
but also, as I've heard other Members say, they're very 
interested in creating economic opportunities.
     So we have the opportunity to do that, but that means 
we've got to get these Federal entities together. We've got to 
have a comprehensive strategy to be able to address these 
communities. And, as was mentioned earlier, we need to 
identify--so where are the 100 locations or whatever the number 
is that folks decide on that we are going to actually build a 
strong foundation under communities and something we need to 
discuss today, build power and wealth inside of those 
communities so that real long-standing, transformative change 
can happen.
     Ms. Bonamici. I appreciate that. And a lot of those 
issues--most of those issues if not all of those issues are 
addressed in the climate action plan.
     Ms. Toney, thank you for your testimony. A recent study 
found that black women in particular are exposed to high 
temperatures or air pollution, they are more likely then to 
have premature, underweight, or stillborn babies. And I 
wondered if you could talk about how the Trump Administration 
of course is taking steps to reduce enforcement of 
environmental laws, and how will these regulatory decisions 
affect the health and well-being of children and parents 
throughout their lives, especially with a focus on children 
because you're the mom here. Thanks.
     Ms. Toney. Well, yes, Congresswoman, and thank you for 
that question. I certainly think of my children every time I 
consider this, as well as the millions of children across this 
country that are unfortunately disproportionately impacted by 
these rollbacks at the EPA.
     Just to make it quick and short, there has to be 
accountability. Unfortunately, EPA has forgotten the beginning 
of their mission, which is to protect human health and the 
environment, human health being first. And so when you look at 
each of these rollbacks, what we see is that there is not only 
a disproportionate impact on people of color but also the 
vulnerability to mothers, pregnant mothers, women of 
childbearing age are not taking it seriously.
     And I will just say personally when I ended my time with 
EPA at the end of 2016, 2017, I was pregnant with my son Devon, 
who is now 3 years old. At that time I found personally there 
were places that just impacted due to climate, due to pandemics 
like Zika virus. At the time I was pregnant. I couldn't travel 
because of Zika. When I was coming face-to-face with women who 
were farmworkers who were talking about the toxins that were a 
part of the--their work clothes every day, the fact that they 
could not embrace their children, I felt that personally. I 
felt it personally when we talked about and were experiencing 
what was happening in Flint, Michigan, because I was a breast-
feeding mother. And so to know that there were people who could 
not drink water and their children who could not drink water 
and have it pass through, these are very real issues that are 
made worse when you have an EPA that does not take into 
consideration the vulnerability of mothers of children and 
certainly of women of color. And being in that group, I 
certainly understand why it is important for us to not only 
hold them accountable but to keep reiterating how critical it 
is for us to understand and then respond to the most vulnerable 
among us.
     Ms. Bonamici. Absolutely. Thank you for your passion and 
your advocacy, and I yield back the balance of my time.
     Chairwoman Johnson. Thank you very much. Mr. Biggs.
     Mr. Biggs. Thank you, Madam Chair and Ranking Member 
Lucas. And I thank the witnesses for being here today. This has 
been very interesting testimony and questions and dialog back 
and forth, and I appreciate that.
     However, I do have to express a modicum of disappointment 
that, as of 24 hours before this hearing began, I had received 
testimonies from actually only one of the four witnesses on 
this panel, just one, and that's unacceptable as I wanted to 
prepare for this hearing. And it actually is a breach of this 
body's rules.
     And as we get to this subject matter, this has been 
interesting because we've covered a very broad array of topics, 
but that's just perhaps one of my concerns with this hearing is 
that the topic today is actually all over the map, which makes 
it disappointing because I think it distracts from what I think 
is probably the most urgent and undeniably terrible statistic 
and that is that black Americans and other individuals of color 
are being hospitalized for COVID and in certain cases dying 
from COVID at a disproportionately higher rate than other 
demographic groups of Americans in many parts of this country.
     And I think my colleagues on the other side, and obviously 
everyone can speak for themselves, but I would assume that all 
of us would agree that the cumulative burdens faced by our 
Nation's poorest communities, many of which are communities of 
color, make it more difficult for them to confront COVID or, 
for that matter, any other serious private or public health 
threat.
     But for all the separate strands that we're engaging with 
today ranging from residential patterns to climate change to 
social justice to environmental regulation and more, these are 
subjects that probably warrant a far more in-depth discussion 
and in many cases actually some considerable debate and as a 
former trial lawyer, I can just tell you that's one of the ways 
we try to get at truth is the back-and-forth and exchange to 
try to find an answer. We simply can't get there in today's 
hearing because we're not focused. And I assume that at some 
point the Chair might bring back for a more refined or granular 
discussion on these issues.
     But I want to just take one example. If you look at one 
strand today, EPA regulation, there are some here who believe 
that whenever the Trump Administration changes a rule for any 
reason that it is unconscionably compromising the safety of the 
planet, but that's simply not true in my opinion and other 
scientists and in some scientists' opinion as well. I had the 
privilege of serving as the Chairman of this body's Environment 
Subcommittee in the last Congress, and we reviewed many of 
these types of things, and I think I can speak with some modest 
amount of authority on the issue.
     And every one of us wants clean air, clean water, and some 
areas of the country unfortunately lag behind others in these 
metrics. But often State-and municipal-level environmental 
agencies are much better positioned to make improvements than 
Federal bureaucrats hundreds or thousands of miles away.
     I can just tell you in the Phoenix metro area, even today, 
our number-one problem with our air quality is dust. And we had 
one leg of the EPA telling us that we needed to take care of 
that by putting water on these dusty areas and in an area that 
has 4.8 million people in it and bigger than several States, 
and on the other side the EPA telling us that we were 
mismanaging our water resources. If we could have handled that 
on the local level, we would have seen far more efficient way 
to resolve that issue and make strides in that.
     And I would say that some EPA rules probably end up 
offering more harm to disadvantaged Americans than benefit. For 
example, you can look at the overly stringent CAFE (Corporate 
Average Fuel Economy) standards, which have been mentioned 
today and that Dr. Ali mentioned in his written testimony, 
which the Trump Administration has recently eased, and I 
emphasize the word eased, not eliminated, when making new 
vehicles. And those standards were making new vehicles 
increasingly expensive, thereby forcing some Americans to keep 
driving older, more dangerous, and less environmentally 
friendly vehicles because that's the vehicles they could 
afford.
     I introduced a legislative fix for some of the problems at 
the EPA, but I probably shouldn't introduce that. That'd be 
just another tangent because, again, the immediate problem 
we're facing today is that persons of color throughout the 
United States continue to be hospitalized, in some cases dying 
from COVID, and I think we could create perfect air, perfect 
weather right now with the flip of a switch if we could. We'd 
still be left with this grim problem when we wake up tomorrow 
morning.
     And I'm hoping that we can refocus some of this hearing on 
immediate resolutions for this very serious problem, which I do 
think is very serious and needs to be addressed.
     And with that, Madam Chair, I'll yield back the balance of 
my time. Thank you.
     Chairwoman Johnson. Thank you very much. Ms. Fletcher.
     Ms. Fletcher. Thank you so much, Chairwoman Johnson, and 
thank you, Ranking Member Lucas, for holding this hearing. It 
is timely; it is important. I appreciate the insights of all of 
our panelists and certainly agree that there are so many topics 
that we are addressing as we're gathered here together today 
that I hope we'll continue to have additional hearings on these 
topics because they are of critical importance.
     I at least want to start with a focus in my questions on 
one aspect of the Federal response. This is largely directed 
first to Ms. Toney and Dr. Ali because you're both former 
employees of the EPA. Of course, as we've heard, as the former 
EPA Regional Administrator for region 5 under the Obama 
Administration, Ms. Toney, as you said, covers the southeastern 
United States, and then, Dr. Ali, as a member of the Office of 
Environmental Justice serving in multiple administrations.
     I would be interested to hear from you what mechanisms 
were in place when you worked at the EPA that ensured 
environmental justice considerations were integrated into the 
research and rulemaking process and whether to your knowledge 
these mechanisms are still in place. And then I'll just go 
ahead and ask kind of the second part of my question, which is 
if also you have policy recommendations for ensuring that 
environmental justice communities are placed in the EPA 
research and development regulatory actions as we move forward. 
So both what was there? Do you know whether it's still there? 
And what recommendations do you have? And then after you two 
address it, if anybody else [inaudible]. Do you want to start 
maybe--maybe we'll start with Ms. Toney and then go to Dr. Ali.
     Ms. Toney. Thank you, Congresswoman. I can speak to what 
happened in the region. I certainly worked very closely with 
Dr. Ali as he was in the EJ office in Washington, DC. When I 
think about what things we did and what things have been 
successful and where we should continue to move forward, it's 
certainly in investing and leveraging not only our data and 
research but also in environmental justice communities that are 
already doing the work. And I can think of no better example 
than Spartanburg, South Carolina, where they were able to 
utilize and turn a $300,000 EPA workforce development grant 
into what is now over $30 million in investment.
     And they were able to work together with EPA because there 
was a program in existence that used--it was sustainable 
communities that brought together the Department of 
Transportation, Housing and Urban Development, and EPA to 
leverage funds so that the environmental justice communities 
could not just grow in one space but have a 360 view of how 
they were growing and developing and investing in those 
communities. And so people were actually not only learning a 
skill but they were investing in their own resiliency and their 
own sustainability in their housing and in their 
transportation, and it was a beautiful--it was not only a 
leverage point but also collection of community, business, 
industry coming together for the betterment of the community.
     I also served as the Chairwoman of the Local Government 
Advisory Committee for EPA before I was Regional Administrator, 
so I did this in my capacity as Mayor. And it was--I was 
appointed by then-Administrator Lisa Jackson, and what was 
interesting is I was appointed about 2 weeks before the BP oil 
spill happened, so truly thrown into the fire. But one of the 
things that was important during that time period was 
understanding and listening to local officials, which is what I 
did.
     I was in charge of collecting the information from over 30 
elected officials who sat on that Committee across the country 
to talk to other local elected officials about what works. And 
if there's anything that I know and have certainly seen, it is 
that Mayors, City Councilmembers, County Supervisors, and 
Governors who are on the frontline and are determined to fight 
climate even when our Federal Government is reversing things, 
they're the ones that know, and they're the ones that are 
giving us the information of how to really activate and utilize 
these resources. And so I think that's what--a place we should 
go--not only go back to but really learn some lessons from.
     Ms. Fletcher. Thank you so much, Ms. Toney. I'm running 
close on my time, but, Dr. Ali, if you could touch on anything 
else that you think would be additionally helpful, I appreciate 
that.
     Dr. Ali. Yes, well, one, we should always be honoring 
communities and their innovation and suggestions on how to do 
this better. One of those tools was actually created in 
collaboration with a number of folks, the States, local 
governments, Mayors, frontline communities, and others. There's 
Plan EJ 2014, which actually has an ADP process, the action 
development process, which gets to rulemaking and helping those 
other parts of the agency to better understand how and where 
environmental justice should be integrated. And a part of that 
was actually taking out rule writers and getting them outside 
of their desk and actually training them on environmental 
justice, taking them to communities so they could see how the 
impacts were actually playing out so that they would have a 
better understanding when they're going through that process. 
So that's one part.
     And I'll just close real quickly because I know we're 
short on time. Another tool that came out of suggestions from 
communities is the National Environmental Justice Advisory 
Council, which allows folks to provide advice and 
recommendations to the Administrator and hopefully those--that 
advice and recommendations also permeates to the White House 
and to others about what the real needs are. So communities 
play a strong role in that, along with business and industry, 
States, tribal representation, and so many others.
     Mrs. Fletcher. Thank you so much for that answer, and 
thank you to all of our witnesses for your testimony here 
today. I exceeded my time, so, Madam Chair, I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Garcia.
     Mr. Garcia. Thank you, Madam Chair, Ranking Member Lucas, 
and to our witnesses, very intriguing testimony, very important 
issues here.
     I echo Representative Biggs' sentiment that I hope in 
future engagements we can narrow down the content here a little 
bit so we can focus on specific asks and needs as we move 
forward and truly bring solutions forward.
     I will say as a Californian I'm in the heart of northern 
LA, 38 percent Latino population, and I grew up in this area 
seeing the terrible air quality. I saw the regulations flow 
downhill to where we are today. And I will say simply that 
Ranking Member Lucas's comments that these regulations don't 
come for free, they do impart a cost on all Members and voters 
and citizens of this country and specifically in California.
     And to that point, while we have some of the highest 
regulations in California, we are also seeing some of the 
highest energy prices, and that does dramatically impact the 
minority populations, the low-income populations, just as 
everything you've outlined before. So these costs are real. 
They are direct, and they do hit the pocketbooks of citizens 
that we're trying to help by definition.
     I guess my question is, and I have no specific witness 
that I direct this to, but if anyone has seen the data, to hear 
about it, the COVID crisis here has actually given us in some 
ways a unique insight into the direct cause and effects of 
human beings on the environment. Over the last four months 
we've seen things shut down. I've seen in LA freeways in the 
middle of rush hour that are populated with maybe 10 percent of 
the cars that they were historically. Have you seen any data 
that shows us what the ramifications of this shutdown have had 
to the environment in all neighborhoods I'd say but especially 
in urban environments, low-income populated neighborhoods? Are 
we seeing dramatic decreases in health cases as a result of air 
quality? Are we seeing massively improved air quality as a 
result of the shutdown?
     Ms. Toney. Congressman, I can start out----
     Mr. Corbin-Mark. Congressman----
     Ms. Toney. Oh, Cecil----
     Mr. Corbin-Mark. Go ahead. I'm sorry.
     Ms. Toney. I'll start and take a quick stab at that, and I 
will have to supplement the testimony with the actual articles 
and data. But to the best of my knowledge certainly we have 
seen in communities where it has not gotten better, 
particularly in communities of color. There is this belief that 
because there are fewer vehicles on the roads that that reduces 
emissions and reduces air pollution. What it does not take into 
account is that air pollution that is around fence line 
communities, black and brown communities that are literally 
right next door to polluting industries, so places like 
Houston, Texas; St. James Parish, Louisiana, these are places 
that, regardless of what happens with transportation, they are 
still going to be experiencing high levels of air pollution.
     And if we add to that the fact that these are essential 
workers, so these are folks that are not only on the frontlines 
when they're going to their jobs, be they nurses or doctors, 
janitors, hotel workers, but they're also people who are having 
to shelter in place in the pollution in the places where they 
live, so that has resulted in seeing actual higher levels of 
instances of health impacts that are devastating to black and 
brown communities.
     I'll just close by saying one of the things we don't want 
to put out there is that in order to clean the environment, 
people have to get sick because that's not true, and that's 
certainly not what we want to have happen. It should be the 
opposite, that this is sort of a wake-up call to us that just 
because we see clear sky in one place does not mean that it's 
clean.
     Mr. Corbin-Mark. And, Representative Garcia, just to add 
to what my colleague Heather has said and to say that, you 
know, there's an MIT (Massachusetts Institute of Technology) 
study that has documented the fact that while we've seen, even 
prior to COVID, record sort of decreases in terms of air 
pollutions from--air pollution from other sectors like the 
transportation sector because of some of the initiatives like 
the CAFE standards and other things that have been put in place 
by the EPA under previous administrations, one of the things 
that still remains stubbornly problematic in terms of air 
pollution is the emissions from buildings.
     And again, I point to the fact, as I discussed in my 
testimony, that one of the things that needs to happen here is 
that we really need to have greater resources for 
Weatherization Assistance Programs and to really take the 
public housing stock across this country and treat it as though 
it is a finite resource, which it is, and then invest in making 
sure that the air quality inside of those homes is better by 
reducing the emissions from oil--dirty oil-burning furnaces, 
for example.
     The fact is that part of what we're saying to folks for 
COVID-19 is that our biggest public health tool is for you to 
shelter in your homes. Well, that is only exacerbating the 
problem when we deal with the consequence of both extreme heat 
and the fact that we have not dealt with air pollution coming 
from those buildings in terms of the boiling of fossil fuel 
infrastructure--the burning of fossil fuel infrastructure like 
the heating and [inaudible] systems, et cetera.
     So I would just--and that--as I said, there's an MIT study 
that points that out and really documents that, and we'd be 
happy to forward that to you. But I'd urge the Committee to 
really look at the issue really providing--telling or 
encouraging your other colleagues in Congress to provide 
greater funding for Weatherization Assistance Programs. That's 
a way in which we can decrease the emissions that are coming 
from buildings and make those homes really truly the better 
public health option while we wait for a virus--a vaccine, 
sorry, for the COVID-19 virus.
     Chairwoman Johnson. Thank you very much, Mr. Garcia.
     Mr. Garcia. Thank you, Madam Chair.
     Chairwoman Johnson. Ms. Stevens. You're muted. Unmute. 
Now, can you proceed? She looks like she's unmuted here, but--
well, we'll come back to you when we get that straightened out.
     Mr. Tiffany.
     Mr. Tiffany. Madam Chair, can you hear me OK?
     Chairwoman Johnson. Yes.
     Mr. Tiffany. OK. Thank you very much. It's a great 
pleasure to be on your Committee and join Ranking Member Lucas. 
Thank you very much for the time today.
     I just have a real simple question. I don't know if 
there's a simple answer to any of the panelists. How much money 
are you looking for? How much money are you looking for from 
the taxpayers of the United States for various projects that 
you're talking about and that you're so passionate about? And 
I'll listen to your answers.
     Dr. Ali. Well, let me respond to that because I've heard 
that question asked for decades now. And I don't think that 
there is a specific number that folks are looking for. What 
folks are looking for is transformation. What folks are looking 
for is justice. And what folks are looking for is that when we 
move forward on the development of policy, programs, or 
activities, that there's a real environmental justice analysis 
to address the impacts that are happening. And to also 
understand that there have been choices that have been made in 
the past that have gotten us to the place that we find 
ourselves in now.
     So once we put together a comprehensive strategy and make 
sure that we've got that analysis, then we can begin to unpack 
all the things that need to be fixed at the Department of 
Transportation and our transportation issues, around housing, 
around job creation and making sure there's true equity there, 
on the environmental side, and our public health side, so I'm 
not sure how you quantify that.
     But what you can do is that you can begin to be very 
serious about the changes that have to happen to help these 
communities to be made full and made whole again. So for me 
that is the best way to respond instead of there being a 
specific number that we're actually truly focused on putting 
the mechanisms in place to help people to move from surviving 
to thriving.
     Mr. Kelley. And this is Hilton----
     Mr. Corbin-Mark. I would just follow up what--hello?
     Mr. Kelley. Yes, I would just like to second what Ali 
Mustafa has stated. I believe that, you know, the counselor is 
definitely on point with what we are thinking as well. I mean, 
it's not about the amount of money that we need, but it's about 
the work that needs to be done and putting together a 
comprehensive plan to get it done when it comes to reducing 
pollution, when it comes to adequate housing, and when it comes 
to health care for Americans across the board, so I second that 
statement which Ali Mustafa made.
     Mr. Corbin-Mark. I--this is Cecil, and I would just say to 
you, Congressman Tiffany, the--there--I support what both of my 
colleagues have said, but there are ways in which to come up 
with a number. So if we're talking about the Weatherization 
Assistance Program, there is a finite number of public and 
affordable housing in this country. It can be counted. The 
Department of Housing and Urban Development has that number. 
They can come up with a number for what it would cost for us as 
a nation to weatherize every single public housing or 
affordable housing unit in this country.
     I do not think that that is something that is out of reach 
of the taxpayers of this country. And furthermore, what I said 
in my earlier statements was that that would redress some of 
the historical injustices with regards to redlining and the 
disinvestment within those type of housing units.
     It would reduce the energy burden on those 
representatives--sorry, those constituents of yours that fall 
into those particular categories, and it is a very definitive 
and achievable task that can be quantified. And, to be quite 
honest, I think that if we came up with a number, it would not 
be something that would break the bank. I just don't see that 
happening.
     Far too often what we do is we pass on those programs for 
other kinds of band-aid types of efforts, which are important 
and critical. So, for example, we may say, well, let's give out 
a few air conditioners here or there. But if you give out air 
conditioners in a situation where extreme heat is continuing to 
rise, what you're doing is putting a band-aid on a problem 
because that house is going to take more electrical cost to 
keep it cool than if you had insulated and weatherized the 
house properly in the first place. This is a fairly sound 
scientific and engineering approach. It has a finite cost, 
there is a finite number, and it can be done.
     Ms. Toney. This is Heather Toney. Just very quickly, I 
agree with all of my colleagues. I think that we should also 
look at what the return on investment is because we don't count 
that often enough. And so as we look at what the investment in 
the dollar amount, whatever that may be, I agree that we have 
to look at transformative efforts but also rely on the career 
EPA staff and scientists. Unfortunately, this Administration 
has greatly reduced that institutional knowledge. But you did 
have career and will in the future hopefully 1 day have career 
staff that know these numbers, have the relationships with 
local mayors and officials that are leveraging these dollars, 
and we're also looking at what the return on that investment 
is. So when you utilize these funds to not only create more 
resiliency within a community that sustains extreme weather, 
you're actually reducing the amount of money that you have to 
put into programs like FEMA and emergency response. So there is 
a balancing act that's done there. It just takes a little bit 
of time, thought, and transformative action to correct some of 
the past injustices.
     Mr. Tiffany. Madam Chair, I really want to thank the 
panelists for their answers, especially Mr. Corbin-Mark. He 
seems to have a strong idea that this is quantifiable.
     I would just follow up with one thing with Mr. Ali. He 
said there would be an analysis that would need to be done. 
What has that analysis been done or is there a way for us to 
see what the assumptions are that are going into the analysis 
for those costs so we would have an idea with finite resources 
in the Federal Government for how much money that it would cost 
with that analysis?
     Dr. Ali. There are steps that have been put in place that 
have been developed with lots of different folks around 
environmental justice analysis, so as was stated at the 
beginning of this, you should most definitely invite someone 
from the Environmental Protection Agency who's still there to 
walk you through the various steps that are a part of that and 
to think then about how that needs to be expanded and to be 
able to utilize that in a number of the decisionmaking that 
happens.
     One of the things that would be really helpful is that, as 
we're moving forward on the creation of laws, is that there is 
an environmental justice analysis component that's a part of 
that to help you to be able to make the best decisionmaking 
possible. And of course that should be done in coordination 
with frontline communities and others who have expertise in 
many of the areas that folks are making decisions on.
     Chairwoman Johnson. Thank you, Mr. Tiffany. Ms. Stevens.
     Ms. Stevens. Can you hear me now, Madam Chair?
     Chairwoman Johnson. Yes.
     Ms. Stevens. Fabulous. Well, what I was saying earlier was 
thank you for having this very informative and insightful 
hearing. I've learned a lot from our witnesses in particular, 
and I want to thank them for their expertise and their time 
today as well, just such incredible work in organizations and 
efforts that each one of them represents.
     And to kind of go back to where we circled on a few times 
but just to get slightly more specific, how can we invest in 
science infrastructure to help bolster our understanding of the 
disproportionate impacts of extreme weather on our communities 
of color based on places where we might be overlooking or 
things that might be making improvements? We obviously hear a 
lot about tree canopies. There were certainly some great 
examples that Mr. Kelley provided--and maybe with that, Mr. 
Kelley, maybe I could--I'll call on you to begin to answer the 
questions.
     Mr. Kelley. Well, yes. We've been working with quite a few 
groups when it comes to helping to reduce the climate change 
impact within the city of Port Arthur and southeast Texas area. 
We work very closely with the Union for Concerned Scientists. 
We're working very closely with Anthropocene Alliance, which 
provides scientists various resources and information to help 
us sort of rebuild and reconfigure our community when it comes 
to housing, when it comes to protecting ourselves against sea-
level rise.
     And I think by investing in Union of Concerned Scientists, 
the Sierra Club, and various other organizations that have the 
science, that have the wherewithal and the staff to sort of 
help put together programs to assist with some of these 
operations to help us, No. 1, keep our cities cooler, by doing 
various planning procedures like gardening, we got our wetland 
restoration projects that need to happen. Also we are dealing 
with sea-level rise, so how do we mitigate our housing? So on 
the coastal areas we have to look at a new way of living.
     We have to look at a new way of building, and that means 
many people here--as a matter of fact, in Port Arthur after 
Hurricane Harvey, any house that's being built in the city of 
Port Arthur must have an elevation plan, so therefore, homes 
must be elevated at least 6 feet above the norm at this 
particular point, but yet if you still live in a low-lying 
area, then the city of Port Arthur and the State will not fund 
your elevation project. They are trying to get people out of 
those low-lying areas because many of them are--at this 
particular point they're not sustainable, and it's time to move 
a little bit closer inland. But yet, there are many ideas, and 
there are many programs by various organizations such as Union 
of Concerned Scientists, the Sierra Club that can help to put 
together programs and ideas to help us move forward with this 
new norm called climate change.
     Ms. Stevens. Right. Well, and I'll tell you, you know, 
there's some--I guess it's still a debate, but I'm here for the 
infrastructure guarantee. You know, certainly those safe and 
maintained roadways and bridges, the guarantee that everyone 
can drink clean water, fresh water, and that everyone can 
breathe fresh air. And that's just our baseline. But then we 
can continue from there to innovate and create jobs. But, you 
know, these are real issues. There's a reason why we're having 
this conversation. And certainly the data is so, so critical.
     And I'm curious to ask our witnesses what data the EPA 
could be collecting right now about the link between 
environmental disparities and the impacts of COVID-19 and other 
data that other agencies could be collecting. And I'll tell 
you, Mayor Toney, I'm a huge fan. I've just gotten to know you 
through this hearing, but reading about your bio, I was 
delighted to see you on. And I just have a few more seconds 
here, but maybe we could get you in before we have to pass it 
over.
     Ms. Toney. Well, thank you very much. And I absolutely 
agree that the EPA should be doing as much data collection as 
humanly possible. There are a number of research facilities and 
everything from data including race, sex, age, where the 
populations are most impacted, relating that to climate 
impacts, so layering it on top of places that have been 
devastated by flood, fire, and just a number of the different 
dynamics we see, in addition to things like air pollution, as 
well as what communities are doing in response.
     And then, again, I want to go back to one of the things 
that we are working on because we work alongside the 
Environmental Defense Fund that has really come up with a great 
research tool, the climate vulnerability index, because it's 
actually a toolkit that helps decisionmakers. It helps mayors 
and community organizers to understand where they should put 
the emphasis of their dollars and their focus when they're 
doing what they're doing right now, which is developing climate 
action plans and looking at renewable energy portfolios.
     The way the Federal Government can assist is because 
it's--by some of these communities and mayors come to the 
Federal Government, come to EPA for things like Federal 
assistance and technical assistance grants. These things are 
partnerships together that allow communities to do the work 
they need to do to research and understand where is the best 
place to put their dollars, how they make the most of their 
investment, and how they protect their most vulnerable 
populations. So these tools are being put together now, and I 
think it's important for the Federal Government to recognize 
where there's an opportunity to make some real difference, so 
thank you for that, Congresswoman.
     Ms. Stevens. Thank you. And thank you again----
     Mr. Corbin-Mark. Congresswoman, I just want to add your--
and part of your question was----
     Ms. Stevens. Yes.
     Mr. Corbin-Mark [continuing]. Focusing on where can we 
make investments for the science infrastructure. I want to 
point out that under the National Institutes of Health, there 
is a National Institute of Minority Health and Health 
Disparities, and it is one of the least-funded entities under 
the NIH system. I think that that is one of the places that you 
could begin to look to make other types of investments to 
really call upon, for example, the CDC to focus on racial 
disparities, to focus on the issue of racism as a public health 
issue, as it has been documented scientifically by a number of 
studies. And I think that those are ways in which you can begin 
to strengthen the infrastructure. I think it is a travesty that 
in the midst of this pandemic we have to claw out of the 
Federal agencies information about health disparities, about 
the way in which COVID-19 was racially disparate in terms of 
our communities, and that should never be able--allowed to be 
happening again.
     And then the last thing I'll say--and I think this 
transcends all--many of the questions that we've talked about, 
Congress has the power of the purse, and with that power comes 
particular requirements that you can institute in the 
legislative language [inaudible], and you all should be doing 
that. I think the other thing is that you also have the power 
of oversight. The more you put agencies--Federal agencies under 
whatever administration they are--under scrutiny and force them 
to bring out into the daylight data gaps, the issue of not 
looking at these things in terms of their racially disparate 
outcomes, the more you do that, then the more pressure is 
applied to those agencies I think to come up with answers. You 
can certainly put the public on notice, and we will certainly--
I think those of us inclined to do so try to create greater 
accountability around the time of the elections.
     Ms. Stevens. Thank you. Thank you so much, Mr. Corbin-
Mark. Thank you for your expertise, phenomenal.
     Chairwoman Johnson. Thank you very much. Mr. McNerney.
     Mr. McNerney. Well, I thank the Chairwoman. Can you hear 
me now?
     Chairwoman Johnson. Yes.
     Mr. McNerney. I thank the Chairwoman for holding the 
hearing. And I want to thank the witnesses. Your testimony is 
stark and very informative, so I appreciate that.
     The city of Stockton, California, which is located in my 
district, has one of the largest environmental justice 
communities in the State of California. It's historically borne 
a disproportionate share of pollution as a result of redlining, 
which has been discussed, illegal dumping, air pollution near 
schools, and other discriminatory policies.
     Mr. Kelley, your organization is deeply involved in the 
fight for the fundamental right to breathe clean, unpolluted 
air. Can you describe the impacts that extreme heat has on 
chronic cardiovascular respiratory diseases, which are 
exacerbated by airborne pollutants?
     Mr. Kelley. Yes. Well, you know, when we're dealing with 
pollution, we know for a fact that sulfur dioxide, it impacts 
the respiratory system, and it impacts the nervous system. Now, 
there are other gases that come along with, you know, illegal 
dumping, for instance, when you have garbage and trash, and 
with that heat, you never know exactly what type of toxins are 
being dumped in various [inaudible] when you have illegal 
dumping. This is why we have segregated trash for various 
areas. You have hard trash, you have industrial liquid trash, 
and we have various departments which they are to go in for 
safety purposes. But when you have illegal dumping, there are a 
number of products that are dumped in illegal dump sites. You 
have toxins like paints, you have solvents, you have some fuel 
material, you have a lot of petroleum material, rubber, 
plastics, all sorts of things.
     And then as this--you know, as these areas start to grow 
in size and you have a large pocket of people living in that 
concentrated area, then, as the heat starts to buildup over 
time, what you'll find is that there are gases that will emit 
from that large pile of trash that's not being treated 
properly.
     So, with that being said, illegal dumping, that's a 
different animal than when you're talking about environmental 
pollution from large industries that may also be plaguing that 
community. And we are having a difficult time dealing with the 
large number of people in our community. One out of every five 
households in the city of Port Arthur has a child or someone 
that has to use a nebulizer before they go to school or take 
breathing treatments before they go to bed because of the 
toxins that they're breathing like sulfur dioxide, particulate 
matter, and other toxic chemicals that come from the oil and 
gas industries and also the chemical incineration facility 
called Veolia.
     So there are a pocket of communities that are around our 
country that are dealing with this, and what we have a tendency 
to do is try to go and work closely with our State to try to 
find some type--kind of reprieve from the dumping of these 
toxic chemicals and illegal dump sites. I know in south Dallas 
there was a major problem with an illegal dump site, but yet 
they ended up turning it into a legal dumpsite, but yet the 
citizens got very involved and they ended up having a lot of 
say-so in how that dumpsite was to be processed and then also 
employed the people in that community.
     So they incorporated the science, they incorporated the 
citizens, thus creating jobs and thus creating a clean way in 
which to get rid of the trash that was dumped in that area and 
that was the way they sort of worked together to get that done. 
So I hope I answered some of your questions.
     Mr. McNerney. You answered more than my question. I 
appreciate that was a good answer.
     Dr. Ali, as States and local government--I've seen you 
before in front of the Energy and Commerce Committee. You're a 
great witness.
     As States and local governments across the country seek to 
address the economic fallout of COVID-19, I'm concerned that 
things like air quality monitoring and environmental justice 
priorities are not going to be given their due consideration. 
What steps might we take in Congress to elevate this issue so 
that they aren't left behind?
     Dr. Ali. Well, you know, it also ties to a previous 
question that we need to make sure that we are properly funding 
community-based participatory research. We need to make sure 
that our historically black colleges and universities, our 
Hispanic-serving institutions, our tribal colleges have the 
resources that are necessary to partner with frontline 
communities on these issues. We need to make sure that the 
communities also have the resources so that they can do their 
own air monitoring.
     We have an expert on the line with us today in brother 
Cecil Corbin-Mark--excuse me, Cecil. I'm talking too fast--that 
they've done incredible work and making sure that folks have 
the education and the training that's necessary for communities 
to understand what these impacts are and then working in 
conjunction with State and Federal folks. There is a true 
honest relationship there.
     So I'll yield back some of my time because I believe Cecil 
may want to also add something to this.
     Mr. McNerney. Well, my time is already expired, so I'm 
going to have to yield back, so, thank you.
     Chairwoman Johnson. Thank you very much. Mr. Weber.
     Mr. Weber. Thank you, Madam Chair. I appreciate that. I 
have been watching and listening for a while, and I want to 
extend my welcome to Mr. Garcia and Mr. Tiffany for joining our 
Committee, get that out of the way.
     For each of the witnesses, if you don't know my 
background, I owned and operated my own air conditioning 
company for 35 years. And, Mr. Kelley, let me quickly say for 
you that my bride of almost 44 years grew up in a little town 
called Nederland, Texas, which is right up the road from Port 
Arthur.
     Mr. Kelley. That's right.
     Mr. Weber. So we know that area quite well, and it's in 
our district of course.
     Mr. Kelley. Last year, right before Thanksgiving, we had a 
major event out there with the TPC plant exploding, so I hope 
every one of your family members was safe.
     Mr. Weber. They were, and I was there on the ground with 
County Judge Jeff there probably [inaudible] after it happened 
I think, so we got to go check that out in person. And you know 
that County Judge Jeff Branick, by the way, sustained damage at 
his own house.
     Mr. Kelley. Wow. I did not know that. I'm sorry to hear 
that.
     Mr. Weber. You bet you. He did.
     But to all of the witnesses, really have any of you all 
ever run an air conditioning or an energy company? And I'm 
assuming the answer to that is probably categorically no unless 
there's something in the background I missed. What I'd like to 
say, and with all due respect to our great Chairwoman, she's 
such [inaudible] to work with, and I got to go overseas with 
her and her son Kirk--somebody was going to say something? No.
     Mr. Corbin-Mark. Yes, just to be clear, no, I have not run 
an energy company, though I have participated in launching an 
energy company with a bunch of my colleagues.
     Mr. Weber. Well, that's good to hear, Mr. Corbin-Mark, 
because you seem like a high-energy guy. I'm just saying. But 
anyway, I got to go over with Eddie Bernice and Kirk, and we 
had a delightful time. But I think we're a little too broad on 
this particular hearing with everything that we've got tied to 
it whether it's heat and cold, energy efficiency, whether it's 
climate change, social justice, whether it's racism. I mean, 
let me just tell you, from an air conditioning and heating 
contractor's point of view, heat, cold, and energy efficiency 
is pocket book blind, race blind, sex blind. It gets everybody 
the same way.
     I was on the Environmental Reg Committee in the Texas 
legislature. [inaudible] tell you that the TCEQ, Texas 
Commission on Environmental Quality, has more air monitoring 
than probably any other area in the United States. That's just 
a fact. I think they do a pretty good job. We all live and work 
there. As I told Mr. Kelley, my wife grew up there. I lived in 
south of the Houston area. I was born and raised there. We all 
want clean air, clean water. We all want a good environment. We 
really do.
     And so, you know, if you want to talk about air 
conditioning, if you want to talk about high-efficiency, the 
cost of energy, I'm your guy. That's my background. That's what 
I do. Environmental quality, TCEQ is the second largest 
environmental regulatory agency in the world, second only to 
EPA. And again, TCEQ's employees live and work in that 
community. They want clean air. They want clean water. They 
monitor that situation.
     So I've got a little bit of a different twist here. I want 
the House to come back to D.C. We can do this safely. We can do 
this efficiently. We want to come back and get in this room 
where I can see everybody. I'm the only Member of Congress in 
this room--where we can see everybody and talk face-to-face, 
shake your hand, get to know you a little bit before the 
meeting and hearing, after the hearing. We can observe social 
distancing.
     And I'll just get really politically incorrect and say we 
need to get our school kids back in school. We can do it 
safely, get our economy going again. We can observe social 
distancing. We can use all the precautions. We can get this 
economy back up rocking and rolling, people back to work. And I 
will tell you that if parents listening to this who are going 
to be saying, yes, if we can do it safely and keep everybody 
safe, I want my children back in school.
     Here we have Ms. Toney, who is a mother of three. Judging 
by the way she looks, her age they're probably one, three, and 
five, so I'm just saying we can get them back in there.
     And we need to get back up rocking and rolling. JFK said a 
rising tide raises all ships. We need to be doing that. I 
appreciate you all being here. I appreciate the Chairwoman 
calling this. And with that, I yield back. Thank you very much.
     Chairwoman Johnson. Thank you very much. Mr. Tonko.
     Mr. Tonko. Yes, Madam Chair, can you hear me?
     Chairwoman Johnson. Yes.
     Mr. Tonko. Oh, great. Thank you. And thank you, Madam 
Chair and Ranking Member Lucas, for this great hearing, and a 
special thanks to our witnesses for bringing their expertise 
and insight to the panel.
     This is such a crucially timely topic for my home 
district. We just experienced a June in upstate New York where 
the daily high temperature exceeded the historical average 21 
times over. Half the days in June were warmer than 85 degrees, 
which exceeds our average high not only in June but in July as 
well. So my constituents have been forced to endure this heat 
in homes that for the most part don't have air conditioning 
because our summers have not been this warm.
     However, COVID's stay-at-home orders, combined with warmer 
summers--a warmer summer is making for, at minimum, an 
uncomfortable and, at worst, a potentially deadly summer in 
Albany and the surrounding area. Heat is the primary driver of 
summertime morbidity for persons with pre-existing medical 
conditions, and minority communities have disproportionately 
more pre-existing conditions. So our societal half-century of 
negligence has driven both issues. It is therefore up to us to 
resolve them.
     So, with that being said, Dr. Ali, it's great to see you 
again. I always appreciate your input. I see this as similar to 
some of the more broad community-related environmental justice 
issues that you described in your testimony. To that end, what 
kinds of tools do you think the Federal Government can employ 
to help rectify this environmental justice problem?
     Dr. Ali. Well, there are a number. At the Department of 
Energy, we have the Energy Efficiency And Conservation Block 
Grant program that provided about $3.2 billion to tribal--or to 
tribal brothers and sisters, to low-income communities, to a 
number of others that is now no longer in place.
     We also, as was stated before, need to look at our 
interagency sets of opportunities to leverage resources to help 
people to have the information but then also to have the 
planning in place to be able to move forward.
     We also need to look at our banking industry also and the 
investments in certain communities that they're willing to make 
and in others that they aren't. Redlining is still real. There 
is a report that just came out recently with the OCO and 
certain banks, the enforcement not happening there and the 
redlining and pushing people and not investing in certain 
communities. And we know the Community Reinvestment Act is a 
part of their privy.
     There are number of things that folks on the Hill can do 
to make sure that the resources are either going to our Federal 
entities, making sure that enforcement is happening properly, 
and then looking at how do we help to strengthen our existing 
infrastructure under the organizations who have always been 
focused on the impacts that are happening but also the set of 
opportunities?
     Mr. Tonko. Thank you. Thank you. And, Ms. Toney, given 
your many years and working on the ground with community 
members, what do you believe the Federal Government must do to 
be a constructive partner in the retrofitting of homes that are 
suitable for a future warmer climate?
     Ms. Toney. Thank you, Representative Tonko. I think we 
should absolutely be listening to our local elected officials. 
They are on the frontlines. But we also have a tool right in 
front of us. The Select Committee on Climate was mentioned 
earlier, and I think it's important to know that there are some 
significant opportunities there within their 12 pillars that do 
focus on environmental justice but also rely upon working 
within communities and community organizations to make sure 
that the infrastructure dollars are put into the right place.
     So the House actually has this report in front of them 
right now, and at Moms Clean Air Force, we're encouraging all 
of our members to reach out to their Members of Congress, ask 
the question have you taken a look at this report. This is some 
active action items that we can get behind right now that will 
help make a difference in not just responding to coronavirus in 
upcoming bills but also looking at the appropriations process 
today, as well as what we can plan for in the future.
     Mr. Tonko. Thank you. And keep that advocacy going. What 
kind of improvements do you believe that current programs such 
as LIHEAP could benefit from to ensure our most vulnerable 
neighbors are able to afford their energy bills, including for 
lifesaving cooling services?
     Ms. Toney. We need to take an assessment and make sure 
that they are being applied correctly, implemented correctly, 
and they are having an impact in the communities that need them 
the most. I think as you look at that, it's important for us to 
take assessment and understand where the dollars are going and 
then how they're being utilized and if they're being utilized 
to the best of their ability right now.
     I stress this appropriations process at the moment because 
it's ongoing. I have never before seen a process--or an EPA 
that is going through the appropriations process and talking 
about vetoing their own budget, but here we are. So looking at 
internally assessing and seeing where these dollars are being 
spent, how they're impacting the communities where they are, 
and if there needs to be some revisiting, I think now is the 
time to do that.
     Mr. Tonko. Well, thank you so much. I have exhausted my 
time, but I appreciate your insights and would suggest that 
beyond addressing the American homes through these health and 
security measures, we're also providing for job creation, so 
thank you. Thank you, Madam Chair. I yield back.
     Chairwoman Johnson. Thank you very much. Mr. Foster.
     Mr. Foster. Thank you. And can everyone hear me? Yes?
     Chairwoman Johnson. Yes.
     Mr. Foster. OK, great. Well, first off, I just want to say 
that environmental justice is an issue that hits very close to 
home with me. I have in my district the second, third, and 
fourth largest cities in Illinois in the form of Aurora, 
Joliet, and Naperville, three cities with very distinct 
histories.
     And I also appreciate the comments on redlining. You know, 
I--when the University of Richmond put online the redlining 
maps of Joliet and Aurora, two cities I represent, I spent 
probably 2 hours looking at those maps just almost trembling in 
rage at the fact that we could see, you know, maybe almost a 
century later the fingerprints of the redlining, and you can 
see on those maps--you can see the incredibly racist and anti-
ethnic comments made by Federal employees in the 1930s that 
determined the fate of those neighborhoods and the wealth of 
those who live there.
     You know, I don't believe it is an accident that the last 
two coal plants to be shut down in the region were immediately 
upwind of the African-American areas of south Joliet, the same 
place that contains many un-remediated chemical waste sites.
     So I--what I'd like to focus on my questioning is the 
effect of urban planning and zoning. You know, the first line 
of defense is always to reduce industrial pollution, but the 
second line of defense is to plan things to avoid forcing 
people to live right near places that--you know, that are near 
these often unavoidable sources of pollution. You know, Mr. 
Kelley, you're from Port Arthur. You know, I remember driving 
through when I was in college, like 45 years ago, Port Arthur 
and saying, wow, why do people live, you know--have to live 
near some of these chemical plants?
     And Texas is famous for its lack of zoning. You know, 
industrial sites, you know, they--you know, it's often probably 
pointed to as a competitive advantage of Texas that anyone can 
build--you know, it's my land; I can do whatever I want with 
it, which ignores externalities that you place on your 
neighbors.
     And in Illinois we have been going through for decades the 
very painful and slow process of separating industrial sites 
from places that people live. And just recently in my district 
after a painful discussion we eliminated an ethylene oxide-
using site that had a tremendously potent carcinogen pumped 
right in the middle of a suburban area.
     So maybe I'll start with Mr. Ali. You know, you mentioned 
how to pick 100 communities to show how well we could remediate 
this, but that means you're picking 10,000 losers. How do we 
decide, you know, where we spend our money to do the most to 
benefit for minority public health?
     Dr. Ali. Well, no matter what the number is, that does not 
mean that--let's say if you identified 100, 500, 1,000, 
whatever that number is, that doesn't mean that the work 
doesn't stop in other communities that are, you know, being 
driven by our statutes and our laws, so that work continues. 
But when I say that, I hope people understand that if we do not 
make communities whole, that if we don't build a strong 
foundation underneath of them, they will always be attractive 
to negative entities, so that's why I say we've got to get 
together and actually make real change actually happen.
     And then at the same time we can continue to make sure the 
people are following the laws, you know, that there's 
enforcement and accountability and compliance, and all the 
various things that all of the Federal agencies and departments 
do. And if we're not willing to do that, then, you know, we're 
doing folks a huge injustice. So that's the reason that I state 
it the way that I do.
     Mr. Foster. Yes, but isn't there an important role in 
comprehensive planning? You know, Mr. Kelley showed pictures of 
flood. His area is not only subject to, you know, huge chemical 
pollution, it's also evidently a flooding area. This happens in 
Illinois as well, and over time what we do is we have paid 
money to the communities to relocate themselves away from flood 
areas, as has been done all over the country. And it's a 
terribly--it's a very fraught discussion, but I think it's 
really important to mitigate this, to actually, you know, have 
long-term plans to mitigate things and--you know, and then 
execute them.
     Dr. Ali. Well, of course. That's why, you know, many of us 
who work in the field that we do, we focus on equitable 
development and making sure that we are also addressing, you 
know, the egregious behaviors of zoning, you know, where people 
would zone something like light industrial and other categories 
that they would use to be able to justify being able to place 
things in black and brown communities, so of course long-term 
planning.
     And that's where making sure that there is transparency in 
the process, making sure that the voice of communities is a 
driver in that process helps us to make sure that we're not, 
you know--not doing the sins of the past. I don't know how else 
to say it but that because there was intentionality in the 
decisionmaking that was done and placing certain things in 
certain communities and building low-income housing in 
floodplains and doing a number of things that we now--you know, 
it's all coming together now of why people are being not only 
disproportionately impacted but why they are literally having 
crosshairs placed on their communities. So there are ways for 
us to address that by making sure that communities are a part 
of the planning process and that they are helping to drive that 
planning process.
     Mr. Foster. Well, thank you. And thank you, Madam Chair, 
for this.
     Mr. Corbin-Mark. Congressman Foster, if I may, 
Representative Foster, I would also--I support your notion that 
community planning is a critical thing but also making sure 
that there are resources for community-based planning and 
community-driven planning is also really critical. I think that 
technical assistance to help communities engage in the process 
is really important. They bring a level of expertise that is 
often devalued by professional planners, not all, but some, and 
so I think it's really critical and important to recognize that 
technical assistance needs to contribute their expertise of 
knowing the communities and understanding their communities 
from living there over long periods of time is really critical 
as well.
     Mr. Foster. Thank you. And, Madam Chair, I yield back.
     Chairwoman Johnson. Thank you very much. Mr. McAdams.
     Mr. McAdams. Thank you, Madam Chair. And this time--this 
hearing is timely for my district as Utah is grappling with 
both rising COVID case counts and summertime heat. In fact, 
Utah hit 100-degree temperatures on a record early date this 
year, on June 5, and we're likely to hit the 100-degree mark 
again this week.
     So Utah's population has a smaller share of people of 
color than the national average, but my State has seen a 
similar trend to national statistics where communities of color 
are hit the hardest by COVID-19. So data from last May show 
that though Utah is about 14 percent Hispanic, Hispanic Utahans 
make up more than 38 percent of my State's COVID cases. 
Hispanic, native Hawaiian, and Pacific Islander, native and 
black communities all face disproportionately high shares of 
COVID cases relative to their share of Utah's population.
     In addition to the novel virus and summertime heat, the 
season also brings worsened air quality to Utah with high 
levels of ground ozone. So I introduced legislation that would 
direct the EPA and National Academies to examine the issue of 
background ozone and its impact on human health, but we need to 
do a lot more to examine both the health effect of each of 
these factors, as well as the risks from their interaction.
     Even in normal times worsened air quality has a notable 
impact on our health, particularly for vulnerable populations 
like those with asthma and the elderly. And now on top of that 
we're grappling with a virus with greater risk for people with 
respiratory issues.
     So my question for the panelists would be in addition to 
the negative effects of pollution on physical health, I think 
we need to examine the impact of higher exposure of pollution 
on a community's mental health. And so, anyone on the panel, 
what are some of the documented effects of heightened exposure 
to pollution and excess heat on people's mental health, 
particularly for children and their brain and behavioral 
development, and how does that combine to affect our minority 
communities?
     Ms. Toney. Thank you, Congressman, for that question. I 
think it's something that is on the mind of a lot of mothers. 
And while I can't point to a specific study, I can tell you 
certainly we've heard from a number of our members that are 
balancing children who are at home, being on the frontline, but 
also, you know, seeing the higher rates of things like domestic 
violence that are taking place unfortunately in communities 
that are grappling with coronavirus, health impacts, air 
pollution, and all of these burdens. And we're seeing those 
instances take place in higher rates in communities of color.
     Now, I don't want [inaudible], you know, anyone to think 
that people are--or certainly that we are making--asking people 
to make certain decisions. People have to make these decisions 
for themselves whether they keep their kids home, whether they 
send them to school. You know, they are making these decisions 
based upon what is the best for their families. But what we do 
know, what we are seeing is that it is a drain on--when people 
who are disproportionately in a space where they cannot escape. 
They cannot leave their place of residence because they are 
living in a polluted area, so they don't have the means to just 
go somewhere else, visit a family member. That's where they 
are, and they're burdened on all sides by that. I hope and look 
forward to studies on that, and that's something that EPA 
should be looking at and researching.
     Mr. Kelley. This is Hilton Kelley, Port Arthur, Texas. You 
know, what we're seeing here on the ground in the southeast 
Texas area is a large number of families that are being broken 
up due to the stress level of unemployment, due to the stress 
levels of the unhealthy conditions in which they live, and now 
we have the threat of COVID-19, which is starting to really 
plague the Jefferson County area in high numbers. We have a 
long way to go before everyone can even think about getting 
tested, and now we have people that are suffering from cancer.
     I was just watching a news report this morning where many 
cancer patients cannot even go to the doctor to have their 
mammogram test. They cannot get their chemo on schedule because 
so many hospitals are dedicated to COVID-19. And of course that 
creates a large amount of stress upon that particular person 
and the family as a whole. But yet when you think about your 
family's survival and you're looking at, you know, your bills 
that are piling up and you're looking at all the issues you 
have to deal with when it comes to the high heat and energy 
costs and not to mention COVID-19 having an impact on low-
income communities and people of color, well, it's a major 
stress factor.
     And people are really, really dealing with it as best they 
can, but yet it's doing a lot of damage in many low-income, 
people-of-color communities. And I'm seeing it here in the city 
of Port Arthur and Beaumont. I know at least three families 
that have basically broken up due to the stress level of 
unemployment and illnesses within the family that just 
financially they can no longer deal with.
     Dr. Ali. This is Mustafa. Just let me say something very 
quickly as we're closing out here. Both pollution and extreme 
heat increases violence. It increases violence on the 
interpersonal level and on group effects. There are a number of 
studies that reference that. It also exacerbates existing 
mental health conditions. There are studies that have shown 
that as well. And it also, as was shared at the onset of this 
hearing, that it also exacerbates suicides, so there is a 
direct correlation between increased heat and suicides or 
attempted suicides.
     And, I'm sorry, if I could just say this last part because 
I feel like we keep getting away from why we are dealing with 
extreme heat situations. If we continue to burn fossil fuels, 
we will continue to increase the heat in our atmosphere, in our 
oceans. So that is one of the places we have to be focused on 
if we're looking at long-term solutions to address some of the 
things we've been discussing.
     Mr. McAdams. Thank you. I see we're out of time. Thank you 
for those--that information, and I yield back.
     Chairwoman Johnson. Thank you very much. Before we bring 
this hearing to a close, I want to thank our witnesses, but I 
also want to welcome our new Committee Members, Mr. Garcia and 
Mr. Tiffany, and to say to Mr. Lucas and Mr. Biggs that we look 
forward to having your input for any continuing plan for this 
subject matter in hearings. We want to be sure that we are open 
to all testimony and as bipartisan as we can be. What we are 
looking for is solutions.
     And so I want to say that the record will remain open for 
2 weeks. I want to thank our witnesses for being here. You were 
phenomenal. And if you have any additional questions for the 
Committee or any additional testimony, it can be submitted. Our 
witnesses are now excused, and our hearing is adjourned. Thank 
you.
     [Whereupon, at 4:31 p.m., the Committee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Ms. Heather McTeer Toney
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Responses by Dr. Mustafa Santiago Ali
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

Responses by Mr. Hilton Kelley
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


                              Appendix II

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

      Documents submitted by Representative Eddie Bernice Johnson
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

             Reports submitted by Dr. Mustafa Santiago Ali
[GRAPHIC] [TIFF OMITTED] T0802.065

     [For full report, see www.nwf.org/protective-value-of-nature]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
